<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:28 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg and Kohl.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF ROBERT S. MUELLER, III, DIRECTOR

                 OPENING REMARKS OF SENATOR JUDD GREGG

    Senator Gregg. We will begin the hearing. It is my 
understanding that, unfortunately, Senator Hollings had a close 
friend pass away and so he is not going to be able to be in 
attendance today. No other members are planning to be here.
    This hearing will have two panels. The first will involve 
the Federal Bureau of Investigation (FBI) Director and the 
second will include the Inspector General of the Department of 
Justice and also two members of the GAO who have spent a 
considerable amount of time working on issues that are related 
to national security and counterterrorism and the Bureau 
specifically.
    We very much appreciate your coming here today, Director, 
and we congratulate you for the effort you have made and the 
successes you have had. America has not been attacked since 9/
11, almost 2 years, and that is an impressive record. In part, 
a lot of it is due to the efforts of the FBI's counterterrorism 
capabilities and your focus on this issue. Having arrived a 
week before 9/11, you had a lot on your plate very quickly and 
you have certainly tried to address it in a very aggressive 
way.
    The FBI has always been a law enforcement agency, a 
reaction agency by definition, one which sees a crime and then 
solves it. Yet, the role of the FBI has changed fundamentally. 
Instead of being a reactionary agency, it is now a preemptive 
agency which has to anticipate an event, find out when the 
event and who the perpetrators of the event might be, and stop 
the event before it occurs, which is extremely difficult. It 
involves counterterrorism and counterintelligence at a level 
that has never been exercised before domestically, maybe during 
World War II, but certainly not at this level.
    So there has been a huge adjustment for the FBI and we all 
recognize that. This committee has tried to be of assistance as 
the FBI has gone through the adjustment in changing the 
culture, changing the structure, changing the technology, and 
we want to continue to be of assistance.
    But we do have concerns, which I know you are familiar 
with, and today's hearing is going to address the areas where 
those concerns take priority. The first is the issue of the FBI 
adjusting from being a police agency, a reactive agency, to 
being a proactive intelligence agency and the change of the 
culture, whether or not the manpower adjustments have 
resulted--have accomplished what you thought. It is a concern 
of this committee that there are still too many people who are 
only temporarily assigned to counterterrorism who come out of 
different divisions of the FBI and the numbers that you hope to 
meet haven't yet been fulfilled in the area of getting the 
Counterterrorism Division up and running.
    The second area is the issue of technology, very serious 
issues which we recognize with the operational aspects, 
especially bringing online Trilogy. It is $200 million over 
budget right now. Unfortunately, the hardware and the software 
do not appear to have been made operable. We are also concerned 
about the delay, whether there is a plan for the future and 
enterprise architecture that works, and also, obviously, the 
cost.
    Trilogy is one area. Another area is the IAFIS 
interrelationship with the IDENT program at the Department of 
Homeland Security and the question of how people coming into 
the country are identified and whether the database that we 
paid for can be adequately used by people coming into the 
country.
    And the third major area is this issue of communications 
between different agencies which have responsibility for 
counterterrorism, the relationship with Homeland Security, the 
relationship with CIA, the relationship with the Defense 
Department. The setting up of these various cross-agency 
initiatives and how they are working and where they can be 
improved is a major concern and has been for many years, long 
before 9/11, ironically, of this committee.
    I would, just for the sake of refreshing people's 
recollection, and I am sorry Senator Hollings isn't here 
because he has been on this committee now for over 30 years and 
he has overseen this agency, the Bureau, for over 30 years and 
played a major role in trying to get the issue of how we 
address the Justice Department question of terrorism and 
fighting terrorism up and coming long before 9/11. This 
committee was the initial energizer for trying to get an 
orchestrated approach toward fighting terrorism in the Justice 
Department. We were resisted, regrettably, by the prior 
administration in that effort when we tried to set up the 
National Domestic Preparedness Office (NDPO) and a number of 
other initiatives.
    But the bottom line which we always were stressing was lack 
of communication between various agencies and the inability of 
people who have concerns, the first responders, to get the 
information they need quickly. We continue to be concerned 
about that.
    With that as a background, Director, your statement will be 
made part of the record. I would be happy to get your input and 
then we can go on to questions.
    Mr. Mueller. Thank you, Mr. Chairman. I know you asked for 
it and you will get a brief statement. I do want to start 
before giving my opening remarks, I do want to thank you for 
your leadership in this committee, for the leadership of 
Senator Hollings and for the strong support that you have 
accorded the FBI, certainly during my tenure and even before 
that time.
    I will tell you that the funding that you have committed to 
the Bureau has been critical to our mission and to our efforts 
to transform the FBI in the wake of September 11. As you have 
indicated, our mission has changed dramatically since September 
11 and our budget figures reflect this change.
    As you, I believe, have requested, I am going to focus on 
three areas in my short remarks. I want to talk for a moment 
about training, second, about management, and third, about 
information technology.

                                TRAINING

    Turning first to the training, for us to go through a 
period of transformation such as we have and to continue to go 
through that transformation, we need relevant and timely and 
effective training. Since the terrorist attacks of September 
11, the new agents' curriculum has been completely revised. 
Counterterrorism and counterintelligence training is now woven 
into every facet of our new agents' training. Indeed, an 
additional week of training has been added in order to 
accommodate the expanded curriculum.
    Our counterterrorism modules now include financial 
investigative techniques, source development strategies, 
terrorist groups and domestic terrorism. We have also developed 
a number of practical problems that have greatly enhanced our 
counterterrorism training. For example, we have developed a 
white collar practical set of problems focusing on terrorist 
fundraising. This enables new agent trainees to experience one 
of the areas, means, and techniques of identifying and 
dismantling terrorist networks before they can strike.
    Of course, we also include practical problems where the 
trainees must respond to terrorist events, such as an anthrax 
attack or an attack involving a substance such as cyanide. In 
the past, our practical exercises have focused primarily on 
criminal applications, such as bank robberies and kidnappings, 
and while these remain an important part of our program, we 
have refocused our training efforts to address our number one 
priority of protecting the United States against a terrorist 
attack.
    We also have expanded our legal instruction to include 
application of the PATRIOT Act, the Attorney General 
guidelines, the Foreign Intelligence Surveillance Act law, as 
well as the impact of the Fourth and Fifth Amendments, 
particularly in the context of overseas investigations.
    As well, we now provide cultural diversity training, 
including a block of instruction on Middle Eastern culture and 
values to our new agents.
    Working with our partners in the intelligence community, we 
have developed a curriculum to provide relevant training for 
our analysts. In fiscal year 2003, the FBI's new College of 
Analytical Studies provided training to 880 analysts during 89 
analytical training sessions, a substantial increase from the 
193 analysts and 10 courses provided in fiscal year 2002.
    And last, in the past year, working with the Kellogg School 
of Management at Northwestern University, we educated our 
executive staff on the FBI's intelligence mission, and to date, 
approximately 250 FBI executives and senior managers have 
received management training at the Kellogg School.

                               MANAGEMENT

    Let me turn to the second piece, and that is the questions 
and concerns you have about the ability of the FBI to adapt to 
change. The FBI has always risen to the challenge and adjusted 
to meet the intelligence and law enforcement needs of the 
American people. From organized crime to civil rights, from the 
savings and loan crisis to espionage, from the war on drugs to 
the war on terror, the men and women of the FBI have 
demonstrated the strength, demonstrated the flexibility, and 
demonstrated the enthusiasm to get the job done.
    The September 11 terrorist attacks further defined the need 
for the FBI to remain flexible, agile, and mobile in the face 
of the threats to the homeland. As a result, we refocused our 
mission and shifted priorities. We realigned our workforce to 
address our new priorities. We restructured management 
responsibilities at headquarters. And we developed projects to 
re-engineer our internal business practices and processes.
    Mr. Chairman, the FBI's commitment to hard work, integrity, 
and dedication to protecting the United States is precisely the 
attribute a workforce needs to embrace and implement the 
transformation demanded of it. This is especially true in 
today's FBI, where crimes as diverse as terrorism, corporate 
fraud, identity theft, human trafficking, trafficking in 
illegal weapons, and money laundering reach across global 
boundaries.

                         INFORMATION TECHNOLOGY

    Last, let me return for a moment to the challenge of 
information technology. As this subcommittee is well aware, 
providing appropriate training and workforce flexibility is 
only part of the solution. Today, more than ever, the FBI's 
successes rely upon having integrated information technology 
systems. This past year, we improved our data warehousing 
technology to dramatically reduce stovepiping and cut down on 
man-hours that used to be devoted to manual searches.
    As an example, during the Super Bowl earlier this year, 
data warehousing tools were used to conduct over 65,000 queries 
in 3 days. In the past, an analyst would have worked 3 months 
to accomplish this task. We have made strides in information 
technology, but as I am sure we will discuss, we have a ways to 
go.
    We have not been able to fully implement all aspects of 
Trilogy because of delays with the Government contractor 
regarding the deployment of Full Site Network Capability. This, 
in turn, has delayed our ability to deploy the Virtual Case 
File. And no one is more disappointed about this than I am. 
However, we are working closely with the contractor to ensure 
that we have the network Full Site Capability by this summer 
and the program is ongoing now and it is promising, but I know 
the subcommittee has questions regarding the Trilogy program.
    In the interest of time, I will conclude at this point and 
be happy to respond to any questions that you may have, Mr. 
Chairman.

                           PREPARED STATEMENT

    Senator Gregg. Thank you. Thank you for being concise and 
giving us a chance to ask you some questions.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

                              INTRODUCTION

    Good morning Mr. Chairman, Senator Hollings, and members of the 
Subcommittee. Before I begin, I want to take a moment to thank you for 
your leadership and strong support of the FBI. The funding you have 
provided has been critical to our mission and our efforts to transform 
the FBI. Over the past two and a half years, we have moved from an 
organization that was primarily focused on traditional criminal 
investigations to one that is actively investigating and disrupting 
terrorist operations. I welcome the opportunity to come before you 
today to discuss this transformation and specifically address three 
areas that have been key to it--information technology, management, and 
training.

                                TRAINING

    Training is essential for the FBI to achieve its strategic goals. 
It is the basis for the success of each individual employee, from 
Special Agents to analysts, and for the FBI as a whole. As threats 
based on terrorism and technology increase, the FBI must prepare its 
employees to meet these threats by providing high-quality training. The 
cornerstone of this training is the FBI Academy at Quantico, Virginia. 
As you know, new agents complete a 17-week training program at the FBI 
Academy. All analysts receive training at the College of Analytical 
Studies, also located at Quantico. In addition, the FBI provides 
training to state, local, and international law enforcement officials 
at the National Academy and hosts numerous training conferences.
    Over the past few years, the FBI has made significant progress in 
improving the training we provide to agents, support personnel, and our 
law enforcement partners.
    To prepare Special Agents to meet our highest priority--terrorism 
prevention--our Counterterrorism modules now include financial 
investigative techniques, source development strategies, terrorist 
groups, and domestic terrorism. We have also developed a number of 
practical problems that have greatly enhanced our counterintelligence 
and counterterrorism training. For example, we have developed white-
collar practical problems focusing on terrorist fundraising that 
enables New Agent trainees to experience one of the means of 
identifying and dismantling terrorist networks before they strike. Of 
course, we also include practical problems where the trainees must 
respond to a terrorist event such as the release of cyanide or anthrax. 
In the past, our practical exercises focused exclusively on criminal 
applications, such as bank robberies and kidnappings. While these 
remain an important part of our program, we have refocused our training 
efforts to address our number one priority of protecting the United 
States against terrorist attack.
    We established the College of Analytical Studies (CAS) in October 
2001 to provide analysts with a formal training program in support of 
our counterterrorism mission. The CAS includes a basic course of six 
weeks for FBI analysts, as well as Joint Terrorism Task Force (JTTF) 
analysts, who may be Department of Justice (DOJ) employees, state and 
local law enforcement officials, or analysts from other federal 
agencies. The CAS trained 880 students in fiscal year 2003--a four-fold 
increase over the 193 students in fiscal year 2002.
    The FBI also provides training to its state, local, and 
international partners through the National Academy, the National 
Executive Institute, and the Law Enforcement Executive Development 
Seminar. In addition, we have partnered with the Department of Justice 
to provide a comprehensive ``Train the Trainer'' program, at the FBI 
Academy, to teams of agents from each FBI field office. After 
completing their training, these teams will train state and local 
police officers in their territory on pre-incident awareness, 
preparation, and prevention in the areas of antiterrorism and extremist 
criminal activity. The goal is for each FBI field office to train 120 
police officers per quarter, resulting in the annual training of at 
least 26,800 first responders in basic CT. As of March 9, 2004, one 
``Train the Trainer'' course had been taught, and a second was offered 
last week, resulting in certification of approximately 55 trainers. 
Through the University Education Program (UEP), we are providing 
funding for employees to pursue advanced degrees in critical skills 
areas as identified by the FBI's list of priorities. This will allow 
FBI employees to readily adapt to changes in mission and keep pace with 
rapid advances in technology. In fiscal year 2004, 147 employees were 
approved to work toward their degrees. Eighty-four are pursuing master 
degrees or Ph.D.'s. We have also invested in executive management and 
leadership training, developed by the Kellogg School of Management in 
Chicago. Approximately 250 Senior Executive Service (SES) managers have 
already received training at the Kellogg School.
    Although the FBI Academy at Quantico supports a tremendous amount 
of the training the FBI provides, it is over 30 years old and not in a 
condition conducive to 21st century training. It has become clear that 
a substantial investment is needed in our infrastructure now in order 
to prevent further deterioration. The fiscal year 2005 President's 
budget request includes $21.3 million in nonpersonnel funding in order 
to renovate the FBI Academy and provide for operations and maintenance 
of the facility, so we can ensure the future of law enforcement has the 
best possible training environment.

                         INFORMATION TECHNOLOGY

    We have made substantial progress in the information technology 
(IT) area since I arrived at the FBI in September 2001, eight days 
before the terrorist attacks of September 11th. At that time, the FBI's 
technology systems were several generations behind industry standards, 
existing legacy systems were approaching 30 years old. IT equipment was 
inadequate. For example, our personnel were working on hand-me down 
computers from other federal agencies. We had little to no Internet 
connections in our field offices, and our networks could not do 
something as simple as transmit a digital photo.
    Much of the progress the FBI has made on the investigative front 
rests upon a strong foundation of information technology. Nearly 500 
counterterrorism and counterintelligence FBI Headquarters employees 
have been provided with access to Top Secret/Sensitive Compartmented 
Information (TS/SCI) at their desks. We implemented the Wide Area 
Network on schedule in March 2003. We improved data warehousing 
technology to dramatically reduce stove piping and cut down on man-
hours that used to be devoted to manual searches. We have deployed 
nearly 30,000 new computers for FBI Headquarters and field offices.
    Following the September 11th terrorist attacks, we were required to 
make an in-depth assessment of our information technology systems. This 
assessment determined that we needed to address some key areas 
including the lack of databases that contained current information, 
limited analytical tools, continual dependency on Automated Case 
Support (ACS), and outdated equipment.
    I have taken specific steps to address our deficiencies in 
information technology. I made it a top priority that we establish 
required databases and develop analytical tools. In a post-Robert 
Hanssen environment, it was critical that we implement new security 
protocols. I also completely replaced the management team responsible 
for Trilogy. I brought onboard a new Chief Information Officer (CIO), 
as well as a project manager from the IT community to monitor the 
progress of the project.
    As you know, during the past year we encountered some setbacks 
regarding the deployment of Full Site Capability (FSC) and the Virtual 
Case File, and we are moving quickly to address them. We are working to 
resolve each issue, and will continue deployment throughout the 
country.
    I believe that we are now on the right track, and we are closing in 
on the goal of completion. We are being diligent in our efforts to 
complete this project within the resources available, and I am 
committed to ensuring the successful completion of this project.
    For fiscal year 2005, the FBI requests increases of $20 million in 
technology investments to continue moving forward. A portion of these 
resources will allow the FBI to install the TS/SCI Operational Network 
in up to 10 field offices and add users to the Headquarters TS/SCI 
Local Area Network (LAN). Expanding the TS/SCI network will provide 
every agent and analyst with classified e-mail and message delivery, as 
well as an electronically searchable archive on their desktop. I will 
continue to seek your help and support as the FBI moves forward into an 
increasingly high-tech future.

                              FBI CULTURE

    The culture of the FBI is now--and always has been--a culture of 
hard work, integrity, and dedication to protecting the United States, 
no matter what challenges we face. The FBI was created 96 years ago to 
fight the spread of traditional crime across county and state lines. 
Today's FBI faces a world in which crimes as diverse as terrorism, 
corporate fraud, identity theft, human trafficking, illegal weapons 
trade, and money laundering traverse easily back and forth across 
international boundaries. Today, we are dealing with organized crime 
groups that launder money for drug groups, which sell weapons to 
terrorists, who commit white-collar crime to fund their operations. In 
the wake of the September 11, 2001, attacks, it became clear that the 
FBI must be more flexible, agile, and mobile in the face of these new 
threats. As a result, the FBI has: refocused its mission and revised 
its priorities; realigned its workforce to address these priorities; 
shifted its management and operational environment to strengthen 
flexibility, agility, and accountability; restructured FBI 
Headquarters; and undertaken dozens of projects aimed at reengineering 
our internal business practices and processes.
    We are building a workforce for the future by: expanding the FBI's 
applicant base for critical skills and diversity; updating new agent 
training to reflect our revised priorities; establishing new career 
tracks for counterterrorism, counterintelligence, cyber, security, and 
for analysts; and improving management and leadership development.
    We are modernizing FBI technology by implementing Trilogy and 
developing cutting-edge technology. We have opened and strengthened 
lines of communication between the FBI and our partners in the federal, 
state, local, and international law enforcement and intelligence 
communities. We amended our original core values to accountability for 
our actions and leadership through example--both at work and in our 
communities.
    In short, we have overhauled the FBI, transforming it into a 
stronger, more flexible, more proactive, and more modern organization, 
better equipped to confront the myriad of threats we face in a post-
September 11th world. We will continue to evolve and make comprehensive 
changes in the overall structure, organization, and business practices 
of the FBI to ensure that we remain the very best law enforcement and 
intelligence agency in the world.

                               CONCLUSION

    We have made great progress, but our work is not yet finished. The 
FBI has a duty to protect the United States, secure freedom, and 
preserve justice for all Americans. The FBI has always answered--and 
will always answer--this call with fidelity, bravery, and integrity. 
The men and women of the FBI work tirelessly each and every day to 
fulfill the FBI's mandate to protect the United States. With the 
support of this Subcommittee, we can give the men and women of the FBI 
the resources they need to carry out their mission.
    Thank you.

                            TRILOGY PROGRAM

    Senator Gregg. Let us start where you ended, which is a 
tangible item. Some of the other issues of culture and 
interchange between various agencies of information are less 
tangible, but let us begin with the Trilogy program and the 
problem.
    This committee has dedicated a massive amount of dollars 
and a huge amount of time to trying to assist the Bureau in 
getting this right, and yet it continues to not work. It is 
$200 million over budget, months, literally years, really, out 
of sync on its timetable. The problem, as you mentioned, is 
that the onsite capability hardware didn't work, and hasn't 
been brought online on time and the software, Virtual Case 
File, first round, I guess, was declared to be ineffective.
    Now we have got a new time line and a new date to have the 
onsite capability up and running. Virtual Case File appears to 
be still very much a question. And there doesn't appear to be 
an enterprise architecture plan, something that looks into the 
future and says, this is where we are going with all this 
technology.
    I guess the first question is, give us specifics as to when 
you expect this to work. Second, I understand that one of our 
problems is that we basically have had contracts which haven't 
put penalties in place and now there is some penalty language. 
Tell us what the penalty language is and how it is going to 
create an enforcement of both the Virtual Case File and the 
onsite capability language and what the game plan is for an 
enterprise architecture plan.
    Mr. Mueller. If I could, Mr. Chairman, reflect a bit on the 
history of the program, and I understand this committee's 
concern. But by way of history, the----
    Senator Gregg. I think we should start by making it clear 
to those who may be listening that the purpose here was to give 
the agent, all agents, the ability to have access to the 
database in real time that would be extremely usable and user 
friendly and would be almost an off-the-shelf capability to 
allow them to have a computer at their desk where they could 
communicate with each other and we wouldn't have things happen 
like happened prior to 9/11.
    Mr. Mueller. Absolutely. And if I can, let me just start 
with a history. Then I will focus on the specific questions you 
asked, not the least of which, what is the bottom line? When do 
you expect this to go online?
    But going back a little bit of the history. As, Mr. 
Chairman, you pointed out, contracts were entered into early on 
speedily without the language that perhaps we would have liked 
in retrospect and there were two contracts. One was for 
basically the hardware side of the house and the other was for 
the software side of it. These were let in the year 2001, prior 
to September 11.
    After September 11--and the contracts proposed a certain 
revamping of the archaic, and I have to say archaic, 
information technology infrastructure of the FBI. But what was 
proposed in the contracts prior to September 11 was not what 
the Bureau needed in the wake of September 11.
    And when we did a review in the wake of September 11 as to 
what we would get as a Bureau from these two contracts, we 
realized they were lacking in a number of ways, the principal 
area of which was a tremendous concern to me was that given 
what Trilogy proposed, we were to retain exactly the same 
database structure that we had had before but put a graphical 
user interface or a web-based interface on it, and retaining 
that database would preclude us from doing exactly what you 
have intimated, having a database that would be accessible to 
all and upon which would sit the search tools that would help 
not just our analysts, but all our agents and support staff.
    So we made changes to Trilogy in the wake of September 11. 
I think you are aware of those changes. They cost substantial 
additional sums of money, but they are, I believe, well spent.
    Over a period of time, you could look at Trilogy and the 
four areas of upgrade. The first is the hardware deployment. 
Before September 11, the computers that were on the desks of 
many agents were, 486s, rejects from the Department of Defense. 
Part of the contract was to replace all of these computers. In 
the last 2 years, we have replaced anywhere from 28,000 to 
30,000 computers for all of our agents and our support staff. 
So the first part was the hardware, replacing the computers, 
the printers, scanners, and the like.
    The second part was the Local Area Networks and Wide Area 
Networks. We have 622 sites around the United States, 
everything from a one- or two-person resident agency to the New 
York Field Office. Part of the program was to replace the Local 
Area Networks and the Wide Area Networks. The same contractor 
that had the responsibility for the upgrades, which I will talk 
about in a moment, had the responsibility for completing, or 
not completing, that on schedule and that was completed on 
schedule March 28, in fact, a couple days before schedule, last 
year. That is the backbone, the Local Area Networks and the 
Wide Area Networks.
    The third piece was the upgrade of those computer operating 
systems, what we call a full site capability, which was to be 
completed in October of last year. We came to find out that the 
contractor could not do it. We are in the process of doing it 
now. My expectation is that that will be done by May of this 
year. We have migrated over 25,000 users from the old operating 
system to the newer operating system on which you can place the 
Virtual Case File.
    And last, Virtual Case File. We are now negotiating with 
the contractor who has the responsibility for Virtual Case File 
on the date of completion of that and changes that we had 
wanted to improve its capability. My expectation is that 
sometime, and I can't get a firm date, after we finish with the 
full site upgrade at the end of April, beginning of May of this 
year, it will take another 2 months probably to go and get 
Virtual Case File on board.
    Let me, if I could, just make another point about where we 
will be when we do get Virtual Case File. I had a very real 
concern when I looked at where the Bureau was going in the wake 
of September 11 as to what would be the appropriate mechanism 
for the Bureau to upgrade its capabilities, its investigative 
capabilities for all agents, and there basically were two 
options. One is, take something off the shelf and modify it. 
Another one is to develop our own set of procedures or our own 
software using contractors and the like, but adopt and build a 
software capability that would be usable, user friendly, and 
transform the Bureau.
    I have had a number of persons outside the Bureau look at 
the decision to develop our own, persons, I call them the gray 
beards, who are from a number of private concerns who would 
look at the choice we have made and the product we have come up 
with. I think the reviews are very good for the product we have 
come up with.
    The last point I would make, Mr. Chairman, is that in 
transforming the upgrade to Virtual Case File, while it 
absolutely has its risks, as we complete this process, we will 
upgrade not only the computers, and our investigative 
capability, but also will change the way we have done business 
for 95 years of our existence, going from a paper-driven 
organization to a digital organization.
    It has cost money. There have been delays. There have been 
mistakes that I have made. There have been areas where I could 
have moved faster and there are areas where I urged people to 
move faster that have rebounded and tended to produce a delay 
as opposed to the speed that I had requested. But I do believe 
we are on track. I do believe that we will have a state-of-the-
art system when we are through.
    Senator Gregg. What penalties do you have in place to 
enforce the April 30 deadline on Full Site Capability?
    Mr. Mueller. If either the costs or the schedule are 
missed, there will be no award fee, which is in the sum of $5 
million, and the FBI and the contractor will pay 50 percent 
each of any cost overruns past that date.
    Senator Gregg. And how about with the Virtual Case File, if 
it doesn't work? The first Virtual Case File just didn't work.
    Mr. Mueller. Well, there were glitches in it. I wouldn't go 
so far as to say it didn't work.
    Senator Gregg. Well, the GAO said it. The Inspector General 
said it didn't.
    Mr. Mueller. Yes. We are negotiating with the contractor 
right now. We are in the course of negotiations with the 
contractor on the date and the cost.
    Senator Gregg. I hope there will be some sort of an 
enforcement mechanism in that contract, too, because I think 
one of the things we have learned is that without penalties and 
without enforcement mechanisms, we just end up with the 
taxpayers paying huge cost overruns here.
    Mr. Mueller. I am in hearty agreement.
    Senator Gregg. The enterprise architecture concept of a 
plan for the future, you didn't address that. That was part of 
my question.
    Mr. Mueller. Yes, and I apologize for not having embraced 
that in my remarks. As I believe you are aware, I had my Chief 
Information Officer (CIO), a very experienced individual, from 
July 2002 through May 2003. Quite obviously, one of the 
challenges for him was the enterprise architecture. I 
understand the necessity for it, the need for it. He left in 
May 2003. I hired Zalmai Al Azmi, who is here today in November 
2003, after an extensive search. One of the first things on his 
plate was the architecture. We have just in the last few days 
entered into a contract to have the architecture developed and 
we expect that by the end of the year, the first phase of that 
will be done.
    In the meantime, I have given Zalmai Al Azmi the 
responsibility for approving any IT project as well as the 
funding for any IT project. As anybody who has reviewed the FBI 
has known, we have been stovepiped over the many years. We have 
had any number of IT projects grow up to meet a particular need 
and there has not been an overarching architecture. By placing 
the responsibility for both the funding as well as the 
development of projects in his shop, as well as developing or 
contracting to have the architecture developed on a very short 
timeframe, I think we are moving to address that.
    Senator Gregg. I have a number of other questions, but I 
want to yield to the Senator from Wisconsin.
    Senator Kohl. Thank you, Senator Gregg.
    Director Mueller----
    Mr. Mueller. Senator.

                        TRANSPORTATION SECURITY

    Senator Kohl [continuing]. In lieu of the recent terrorist 
attacks at four train stations in Madrid, the security of our 
own mass transportation system has been called into question. 
Yesterday, Secretary Ridge announced a new plan to secure our 
rail system. This effort would include rapid deployment teams, 
which could be deployed to vulnerable rail systems and stations 
with bomb sniffing dogs. In addition, the Department of 
Homeland Security will accelerate a pilot program to test 
equipment for screening passengers and luggage for explosives.
    How much confidence do you have in the effectiveness of 
this proposal to protect against terrorist attacks? How long do 
you believe it will take to get this program up and running? 
And what role will the FBI be playing to help protect the 
transportation infrastructure, Director Mueller?
    Mr. Mueller. The plan proposed by the Department of 
Homeland Security will go some ways in hardening our 
transportation, the rail transportation. I will tell you that 
in the past, even prior to the announcement of the new 
initiative yesterday from the Department of Homeland Security, 
the Department of Homeland Security, ourselves, and others have 
worked closely with both the railroads, but most particularly 
with the subway systems, particularly New York, Washington, DC, 
Boston, Los Angeles, and Chicago, to assure heightened 
protection of those particular targets.
    So as to the first part of the question, yes, the new 
initiative yesterday will go some ways again to deterring 
terrorists from attacking the rail systems because of the 
heightened security. We have learned, both from our experience 
from gathering information from around the world and more 
particularly from our discussions with detainees who are 
familiar with al Qaeda's thinking that enhanced deterrence 
deters terrorist attacks and they look for the softer targets, 
so yes. Yesterday is yet another step in protecting the rail 
systems as well as the subways, but the fact of the matter is, 
while it goes some substantial ways, one cannot have a failsafe 
system, as we saw in Madrid 2 weeks ago.
    So yes, we are protecting the subways in the various cities 
I mentioned in conjunction with the transit authorities and the 
local police, but it is not a failsafe system. As we develop 
these proposals, we work with the Department of Homeland 
Security to assure that we have the integrated response to 
assure that whatever threat information we have is immediately 
passed on to not only the Department of Homeland Security, but 
to the transit authorities or the police departments in the 
cities that may be threatened.
    If there is a more general threat, that also is basically 
provided through two means of communication. The one means is 
through the Department of Homeland Security advisors throughout 
the United States and in each of our major cities, and the 
second is through the FBI and law enforcement to each of our 
joint terrorism task forces, of which there are 84 around the 
country.

                               EXPLOSIVES

    Senator Kohl. Thank you. Director Mueller, current law 
requires all domestic manufacturers of explosives to mark their 
products with identifying information. This allows 
investigators to determine the origin of the explosives and 
aids them in tracking down criminals. Imported explosives, 
however, do not have to carry such markings.
    In 2002, the United States imported 14,900 metric tons of 
prepared explosives. Without markings, law enforcement has a 
distinct disadvantage in investigating crimes involving 
foreign-made explosives. The Justice Department has been 
working on regulations that would require importers to mark 
explosives when they enter the country, but these regulations 
have not been finalized.
    What effect does this loophole have on our ability to 
effectively investigate crimes involving explosives, and would 
you support legislation that would require appropriate markings 
to be placed on all imported explosives?
    Mr. Mueller. Well, I do believe markings assist 
investigators in solving the crime, so to speak, and 
determining the sourcing of the components to any explosive 
device will assist you in determining who was responsible for 
any act using such a device. And so, yes, I think markings are 
helpful.
    I will tell you that in many cases, overseas and actually 
domestically, our laboratory can identify a sourcing of a 
particular explosive just because of the vast knowledge that 
they have gained over a number of years as to the manufacturers 
of various components and their identifying data. But that is 
not the same as the markings we have domestically.
    With regard to the support of that, again, that would be an 
administration position and I would have to defer to the 
Department as to exactly what position they are taking on a 
specific piece of legislation.
    Senator Kohl. Would you like to see personally all imported 
explosives to be marked?
    Mr. Mueller. I think markings are helpful to the 
investigator and the laboratory technician who is trying to 
identify the sourcing of that explosive.

                       TERRORIST SCREENING CENTER

    Senator Kohl. All right. Director Mueller, the media has 
reported that biological threats may have played a role in the 
cancellation of numerous commercial flights in December and 
January. When asked at a hearing last month, Secretary Ridge 
admitted that our airline security procedures cannot currently 
protect against these types of biological threats. Secretary 
Ridge suggested that the best way to prevent such attacks is to 
concentrate on going after the people who may launch such an 
attack.
    A terrorist watch list is vital to our national security. 
The FBI, through the creation of the Terrorist Screening 
Center, known as TSC, is partially responsible for creating a 
single integrated terrorist watch list. In a recent interview, 
you said that this integrated list would be completed by March. 
Is this list fully operational today with a completely 
integrated watch list, and if it is not, when can we expect 
such a list to be fully integrated and operational?
    Mr. Mueller. The Terrorist Screening Center was first 
established on December 1, 2003, and what it brought together 
was individuals' access to the databases of all of the watch 
lists, and there are approximately 12, in a variety of agencies 
in the Government. What it brought together at that time was 
the ability, when there was a hit on the watch list, to 
thereafter determine whether it was valid and then to follow up 
with action through the joint terrorism task forces or through 
the border agencies.
    In the meantime, since December 1, 2003, the Terrorist 
Screening Center has been working with each of the agencies 
that had a relevant watch list to import its data in a way that 
assures that the name of the person is a valid name, that there 
is identifying information that supports it, and there is a 
basis for having the person on a Terrorist Watch List.
    I can tell you that the State Department has a list of 
easily over 100,000, not just terrorists, but others whom they 
want to bar from the country. So extracting those names is a 
substantial process, and assuring that there is a basis for 
that name going into the watch list is also a very extensive 
process.
    We are about halfway through that process at this point. We 
have a consolidated watch list, but we do not have all of the 
watch list names in it because we are going through that 
screening process. I expect it to be finished by this summer.
    Senator Kohl. Thank you. Mr. Chairman, I thank you.
    Senator Gregg. Thank you, Senator.

  DUPLICATION OF EFFORTS/TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Following up on Senator Kohl's point on the Terrorist 
Screening Center, we have been setting up these new initiatives 
that I presume are trying to get away from stovepipes and 
cross-fertilize the different agencies involved, such as the 
Foreign Terrorist Tracking Task Force and the Terrorist 
Screening Center and the Terrorist Threat Integration Center 
and the Terrorist Explosive Device Analytical Center (TEDAC) 
and the Joint Intelligence Coordination Council.
    I guess my question is, are we spinning here? Are we 
duplicating? Are some of these groups ending up being redundant 
and not adding value but actually just shifting deck chairs 
around? I would take, for example, the Terrorist Explosive 
Device Analytical Center, which as I understand it is 
essentially taking over the role, or attempting to take over 
the role, or attempting to duplicate the role that already 
exists at ATF, where they have two databases on explosive 
devices and where they have had the role of overseeing 
explosive devices for quite a while.
    Mr. Mueller. Let me start with TEDAC, which the ATF quite 
obviously participates in. It was an idea that came from the 
Saudi Arabia bombings of May 12, 2003, and our participation in 
helping the Saudis on that case, and most recently what we have 
come to find in Iraq.
    There was not a worldwide effort to in develop a database 
in one place with an expertise associated with it to identify 
explosive devices from around the world used by various 
terrorist groups. So the idea came out of our work in Iraq, 
where we along with the Department of Defense (DOD), the 
British, and a number of others, are developing the database 
related to the various incidents occurring in Iraq.
    We have expanded that under the auspices of the FBI 
laboratory to include devices from around the world. Now, the 
first step was to get our own house in order to make certain 
that we are working together with DOD, the CIA, with ATF, and 
NSA to cooperatively develop this database.
    And so it was an idea borne out of our experiences in Iraq 
and elsewhere----
    Senator Gregg. Let me get specific, Director. ATF has 
something called the X-Base, I believe it is called, and then 
they have something called the Bomb and Arson Tracking System. 
You are saying that TEDAC is not going to be duplicative of 
those but will have more of an international flavor than those 
have?
    Mr. Mueller. I believe it will, but I would have to get 
back to you on how they can or should be integrated.
    [The information follows:]

               Possible Integration of X-Base Into TEDAC

    The mission of the TEDAC is to forensically and technically 
analyze terrorist explosive devices used against U.S. interests 
anywhere in the world and to develop actionable intelligence. 
As such, the TEDAC will require a very robust database with 
state of the art link analysis software that will enable 
computers to compare Improvised Explosive Device (IED) 
components sent in from a variety of sources. This 
functionality will allow the TEDAC to rapidly recognize 
otherwise non-observable connections between IEDs that exist 
with a tremendous volume of detailed technical and forensic 
information and intelligence. The ultimate goal will be to 
identify those individuals associated with the IED and the 
unique signature used to manufacture the bomb. All intelligence 
gathered from the forensic and technical analyses of IEDs will 
be disseminated among the military and law enforcement 
explosives community for technical and tactical purposes.
    Currently, the Department of Justice is conducting a review 
of all explosives-related databases. The Department will, upon 
completion of the review, advise the relevant committees of the 
Department's final conclusions.

    Senator Gregg. And the other question that goes into that 
issue is that I understand the FBI is considering taking over 
all of the explosive activity that was traditionally with ATF. 
Is that true?
    Mr. Mueller. That is not true.
    Senator Gregg. The investigative activity in the area of 
explosives?
    Mr. Mueller. That is not true.
    Senator Gregg. Well, then maybe I am misinformed. It is my 
understanding that in this budget, we have a shift of that 
responsibility from ATF over to FBI.
    Mr. Mueller. There is a differentiation of responsibilities 
between the FBI and ATF. We do have the responsibility for 
addressing terrorist, or possible terrorist incidents within 
the United States, and generally, the ATF has a responsibility 
for most other explosive incidents that you have within the 
United States.
    In terms of training, our training focuses on render safe, 
that is, how persons render safe the explosive device prior to 
there being an explosion and the ATF has the expertise in 
training what you do and how you investigate explosive devices 
that have gone off.
    I can tell you that there is a division of responsibility. 
There are occasionally tensions, both in the field and here, 
now that ATF is within the Department of Justice, the 
Department of Justice has a task force that is looking at that 
allocation of responsibility.
    Senator Gregg. That must be what I was informed of, and I 
guess I was misinformed, because our impression was that they 
had gone much further than just looking at it, that there had 
been sort of a preliminary move to have ATF move explosive 
activity over to FBI. I am glad to hear that is not the case, 
because I understand only about 1 percent of the explosions 
that occur are terrorist related.
    Mr. Mueller. There is no move for us to take over ATF's 
responsibility when it comes to investigating incidents 
involving explosions----
    Senator Gregg. That are not terrorist.
    Mr. Mueller [continuing]. Beyond the terrorism field.
    Senator Gregg. We have had this Madrid incident----
    Mr. Mueller. Yes.
    Senator Gregg [continuing]. And my question to you is, 
Europe is now starting to expedite its efforts in the area of 
counterterrorism and the European Union is talking about 
setting up a Europe-wide database that is counterterrorism 
oriented. I guess they had one, but they are talking about 
significantly improving it and increasing it.
    To what extent have you had discussions post-Madrid as to 
the role of ourselves and the FBI specifically in this new 
effort by the Europeans to become more sensitive to and more 
knowledgeable about the threat?
    Mr. Mueller. Since the Madrid explosions I have not had 
much opportunity to talk to counterparts overseas other than my 
counterpart in the Spanish National Police, and the discussion 
there was not addressed to what Europe could do as a whole 
itself to integrate terrorism information, and then a subpart 
of that, involvement of the United States.
    For the most part, our relationships with our European 
counterparts are very good on a bilateral basis and we share a 
great deal of information, depending on the country, with our 
counterparts overseas. The European Union has what is called 
Europol, which is an entity established by the European Union 
to address law enforcement, terrorism issues and it, I would 
say, is in its opening stages.
    I have had discussions within the FBI, some outside, with 
regard to a proposal suggested by Congressman Wolf about our 
participating in an international terrorism information 
exchange and we are exploring the possibility of doing that 
under the auspices of NATO. One of the problems you have in 
terms of exchanging information is having everyone on the same 
security level so that one is given access to meaningful 
information. And one of the problems that one has where you 
have a group of countries working together, you wonder what the 
security level may be. Who gets the information? One has to 
work through that. Our thought is that NATO may give us the 
vehicle to do that because there are security levels, and 
persons seconded to NATO with the appropriate security 
clearances. This is a vehicle that we are currently exploring.
    Senator Gregg. So right now, there is no formal structure 
or communication process other than personal relationships 
between the Director of the CIA and yourself that causes 
information to move back and forth efficiently?
    Mr. Mueller. No, I would say there is a lot more, a great 
deal more than that. Ourselves and the agency, we have legal 
attache offices in most European capitals, not every one of 
them, and it is that legal attache office that meets daily with 
our counterparts, whether it be in France or the United Kingdom 
or Spain. So there is an exchange of information between our 
legal attaches overseas and our counterparts overseas on a 
daily basis.
    We also have the foreign Embassies in Washington, DC. You 
also have Scotland Yard, MI-5, MI-6, and others who will have 
persons here who have exchanges with our people daily. And so 
there is a network of exchange of information that is ongoing 
that people don't often hear much about but has been 
tremendously effective since September 11.
    What you do not have is Europol, which has been established 
by the European Union. While we have persons that have spent 
time at Europol, it is just getting established and whether it 
will be an effective information exchange for the European 
Union is still to be seen. In the meantime, we are going to 
explore this other option of exchanging with a number of 
countries information relating to terrorism under the umbrella 
of NATO.
    Senator Gregg. Is there compatible Terrorist Screening 
Center in Europe yet?
    Mr. Mueller. No, there is not at this point.
    Senator Gregg. Would you presume that if there were, that 
we would integrate with it?
    Mr. Mueller. Yes. I think we would exchange lists, yes.
    Senator Gregg. Should we help them get that going? It seems 
to me that a lot of our threat is going to be based there, and 
granted, you have got your Legats all over the place who I am 
sure are developing names, but that is a pretty ad hoc 
approach.
    Mr. Mueller. I met with a representative of Europol maybe 2 
to 3 weeks ago in terms of what they have established in terms 
of capability and it is relatively small at this juncture.

                                 TOPOFF

    Senator Gregg. What did you learn from the TOPOFF events 
that you could impart to us that we need to do in order to 
improve communication between the various parties who 
participated? I mean, the purpose of TOPOFF was to simulate an 
event and see where the weaknesses are. What was the FBI's 
weakness and what should we do to address it?
    Mr. Mueller. It has been some time since I have looked at 
TOPOFF. I think one of the basic lessons we learned out of it 
was the Seattle aspect of it, that is, the necessity of 
identifying the relative chain of command and the authorities 
beforehand. Since that time, I know the Department of Homeland 
Security has identified individuals in most cities, I believe, 
who would be the representative of the Department of Homeland 
Security on scene and is training those individuals. I think 
that was a weakness that I saw.
    There were certain weaknesses that we saw out of the TOPOFF 
exercise in Chicago, which was a chem-bio attack, and I would 
have to go back and refresh my memory on what those weaknesses 
were in terms of responding to that attack.
    Senator Gregg. Is there a formal structure for responding 
to the weaknesses that were identified?
    Mr. Mueller. Yes. I know there is an after-action report 
and that the various items on that after-action report were 
identified and are being addressed by Homeland Security.
    Senator Gregg. Maybe you could give us a summary of what is 
being addressed for the record.
    Mr. Mueller. I will be happy to do that.
    [The information follows:]

                Summary of TOPOFF 2 After-Action Report

    Since the publication of the ``TOPOFF 2 After-Action Summary 
Report,'' the Department of Homeland Security (OHS) has used the 
conclusions from this analytical document to lead the federal 
government's national effort to revamp, centralize, and unify a range 
of pre-existing federal and other incident response contingency plans. 
Among the actions undertaken by the DHS in response to TOPOFF 2 arc:
  --Enhanced interagency coordination for incident management.--At the 
        time of TOPOFF 2, DHS had instituted a Crisis Action Team (CAT) 
        to address incident management requirements. TOPOFF 2 After-
        Action comments suggested that the DHS develop more formal 
        standard operating procedures with incident-specific 
        interagency staffing requirements. These suggestions led to the 
        transformation of the CAT into the Interagency Incident 
        Management Group (IIMG), which was formed to address decision 
        and coordination processes in elevated threat environments 
        through bringing together federal, state, local, and private 
        sector agencies as one functional entity to address specific 
        contingencies, threats, or events.
  --Enhanced Principal Federal Official (PFO) capabilities.--The PFO 
        concept, which was first tested in TOPOFF 2, has been enhanced 
        through the establishment of training courses with curriculum 
        that clarifies the mission, roles, and functions of these 
        senior DHS officials in response operations.
  --Improved emergency public information coordination.--The DHS has 
        led an intensive interagency effort that has resulted in the 
        creation of an interagency incident communications strategy, 
        emergency communications protocols, and vastly improved 
        federal, state, and local coordination.

    Senator Gregg. Where do you see the status of training 
first responders relative to the FBI role, to the extent there 
is any in that?
    Mr. Mueller. Well----
    Senator Gregg. And how do you see our first responder 
capability these days?
    Mr. Mueller. We do a tremendous amount of training in 
evidence recovery throughout the country, throughout the world 
now in crime scene exploration. That is not what traditionally 
is called first responder, but it is our niche that we will 
continue to address.
    We have a render safe capability that we have continued to 
grow over the years and we will continue to grow that 
capability.
    In terms of the response from the fire or the ambulances 
and that form of first responder, as with the TOPOFF exercises, 
there have been other exercises. Every one of our special 
agents in charge in each of our cities is integrated now, both 
through our joint terrorism task forces, but also through 
various exercises in various cities with those first responders 
so the communication, the ability to stand up quickly and 
respond to a devastating attack, is much enhanced since 
September 11.
    Senator Gregg. So you think we are making progress on 
training first responders?
    Mr. Mueller. Yes.
    Senator Gregg. Do you think it should be threat based, 
where we choose to put the money for this?
    Mr. Mueller. I am going to have to leave that to others. 
That is a little bit out of my bailiwick. I think that is more 
in Tom Ridge's. I am not that familiar with the financing----
    Senator Gregg. Okay. I will----
    Mr. Mueller [continuing]. Structure, I will just put it 
that way, of allocating the funds.
    Senator Gregg [continuing]. Okay, onto other topics, then. 
Three, just quickly. Do you believe al Qaeda was responsible 
for the Madrid attack?
    Mr. Mueller. From what we have seen to date, I believe so. 
Now, when you say al Qaeda, let me just qualify that to a 
certain extent. There may well have been a group of individuals 
who have adopted and believe in Bin Laden's philosophy, 
theology, who are responsible for this, but may not have had, 
either sought or had the approval of those remaining leaders of 
al Qaeda. But I think it is fair to say that the evidence tends 
to point to individuals who were supportive of the radical 
fundamentalism and would be supporters of al Qaeda's mission.

                        COUNTERTERRORISM AGENTS

    Senator Gregg. In changing the culture of the FBI, how many 
agents are you planning to put into the Counterterrorism 
Division?
    Mr. Mueller. Well, we had----
    Senator Gregg. Approximately?
    Mr. Mueller. I moved 518 in fiscal year 2002. I would 
expect that at the end of 2004, we are authorized 2,418 agents. 
That is up from 1,351 agents in fiscal year 2001. With the 
additional increases sought in the 2005 budget, we will be up 
to 2,592 agents.
    Senator Gregg. As I understand it, there are still about 
380 agents who are assigned to the Criminal Division that are 
being used in counterterrorism, is that correct?
    Mr. Mueller. I believe it is about 380 at the end of this 
year, yes. We are actually overburdening some more than that at 
this point. But with the 2004 budget increases, I believe we 
will be 389, is what we anticipate at the end of this year.
    Senator Gregg. I guess the obvious question is, and I am 
sure you have a strong answer to it, but the obvious question 
is, if counterterrorism is your number one responsibility now 
and if you have got 12,000 agents overall, approximately, 
first, why are we only dedicating 2,500 to the effort?
    And number two, why haven't we been able to move the full 
complement into this arena, and is that a reflection of the 
fact that there is still some significant--resistance is the 
wrong term, but some significant desire or feeling amongst the 
line agents that they want to do things other than 
counterterrorism, that they were trained, they were brought up 
for 20 years, 30 years, 15 years in white collar crime and 
chasing the mafia and finding out who robbed the bank and they 
like that?
    Mr. Mueller. It is not a reflection--of what a particular 
agent or group of agents want to do. I have sought, as we have 
discussed before, to request additional resources in 
counterterrorism, to move additional resources when I thought 
it was necessary. I moved in excess of 500 agents in fiscal 
year 2002 and I have sought additional enhancements so that if 
we get the 2005 budget, that 389 figure should be down above, 
just a little above 230.
    I am also considering making a move of additional agents to 
counterterrorism. You will see that in the budget, we are 
looking at--in the budget submission, we are looking at a 
number of agents who in the past have been working on 
Government fraud cases where I believe the Inspector Generals 
can take up some of those cases. And I am looking for other 
ways to transfer agents to counterterrorism.
    I have looked to see what our continuous level of 
assignment of agents to counterterrorism would be absent the 
peaks. We have, as we have discussed before, we have had two 
peaks in the past, certainly with regard to--in the wake of 9/
11 and then in anticipation of the hostilities in Iraq. I do 
believe that one of the benefits from having a number who are 
still being reassigned from criminal in some offices reflects 
the desire to have flexibility in the system.
    In the savings and loan crisis, when we were given 
additional resources, whether it be prosecutors or agents, we 
identified where the problem was and the agents were put in the 
particular city and they are there to this date. What we found 
in terrorism is that terrorism cells can arise anyplace in the 
United States, and when they arise, we have to do a combination 
of pushing resources to those particular offices as well as 
taking persons from those offices who are addressing another 
priority. Part of the reason that you have the statistics you 
have as to the overburn is attributable to that desire to be 
flexible.
    The bottom line is I am continuously looking at it. I will 
look at the end of this year, or as we go through this year, at 
the feasibility of reassigning agents from other programs to 
counterterrorism.
    Senator Gregg. I noticed you dropped a couple of 
activities. There were two specific areas that you decided----
    Mr. Mueller. The first one was fraud on the Government. The 
other one was assistance of EPA.
    Senator Gregg. We put a lot of things on the FBI's table 
over the years before 9/11. There is probably a list that is 
longer than that that you could drop, isn't there?
    Mr. Mueller. There are areas that I have looked at. I mean, 
there are some areas that are relatively insignificant that 
don't make a big cut. The one area where I have reassigned the 
most agents was from the drug program and we have continued to 
underburn in the drug program as a result of those agents being 
reassigned to do counterterrorism.
    One of the things, and it may be--I don't think it is that 
different than what happened in the past, but each of the 
special agents in charge are directed to expend the resources 
to do the job in counterterrorism, even if it cuts into other 
programs. So if you have a terrorism lead that has gone 
unaddressed and agents assigned to counterterrorism are busy 
with terrorism matters, then you have to take them from 
someplace else. That is the type of flexibility that we have 
not necessarily used in the past that I think is important to 
use in the future where we have terrorism not limited to one 
city or two cities, but it can pop up anyplace around the 
country. And I say not just international terrorism, but 
domestic terrorism.

                          LANGUAGE TRANSLATION

    Senator Gregg. I understand that. I noticed that you have 
something like 65 people who are now trained in language who 
are fluent in Arabic languages, is that right?
    Mr. Mueller. We have 24 Arabic speakers in the agent 
population. Now, we have dramatically increased our linguists 
and our translators in the Bureau, as I think you are aware.
    Senator Gregg. That is maybe where the 65 came from. That 
seems like an awfully small number.
    Mr. Mueller. We are pushing training. We are recruiting as 
hard as we can for those who speak Arabic. We have had some 
success, but not as much success as I would like. We are 
enhancing the language training for our agents and those who 
receive the training will now be in a position where they can 
use that training, which has not always been the case.
    Senator Gregg. How can we help you get more people on 
board? Do you need a pay differential?
    Mr. Mueller. We have gotten in our request last year in the 
2004 budget as well as in the 2005 budget. You have increased 
our budget to assist in sending agents as well as analysts and 
others for language training, not only in Arabic but Mandarin 
Chinese and other languages that we need to have an agent cadre 
fluent in.
    Senator Gregg. I would hope if there is something further 
we could do, we would like to do it.

                              IDENT SYSTEM

    In talking with Director Hutchinson at Homeland Security 
about the new IDENT system, US VISIT, where they are 
fingerprinting people coming into the United States, he advises 
us that they are using a flat screen, two index fingers, 
printing system for the sake of speed, basically was what it 
came down to, because using all five fingers or a roll system 
just took too long.
    We now built IAFIS, which cost us a huge amount of money, 
before you arrived. We had the same problems with that that we 
have had with Trilogy, except I think it even cost more in 
overruns.
    Mr. Mueller. But it is also, if I can interject, it has 
been tremendously successful.
    Senator Gregg. Well, it took a long time to get there, 
believe me. It has been successful, and that is my point. It 
has been successful. It has got 44 million fingerprints on 
file, and yet it is not compatible with IDENT. This seems to be 
one of those things which is very hard to explain to a 
taxpayer, that we are putting in place a system at the State 
Department and Homeland Security to identify people coming into 
the country. We have 44 million fingerprints over here. Sure, 
most of them may be domestic, but there are certainly a lot 
that aren't and the two systems can't talk to each other. The 
next terrorist event, we may find out a fellow got through the 
IDENT system but his fingerprints were over at IAFIS.
    Mr. Mueller. Well, this has been a matter of much 
discussion, not just recently, but over the last year. Quite 
obviously, the 10-print roll prints is the gold standard. I 
know that the Department of Homeland Security was faced with 
the necessity of establishing very quickly a biometric system 
that was affordable and could be put up quickly and opted for 
the two-print system in the meantime. There are discussions 
about how that can be expanded to a 10-print flat as opposed to 
a 10-print rolled, which would take a long time for everybody 
and I don't think we would want at our borders with the fact 
that 1 million persons go in or out of the country every day.
    So it is a combination of, on the one hand, you have the 
gold standard. On the other hand, you have the practicality of 
identifying persons coming in swiftly in such a way that you 
can identify terrorists. The way we do it now is we have a file 
that we provide to the Department of Homeland Security that 
includes all the fingerprints and they strip off the two index 
fingerprints and utilize that to identify persons who may be 
terrorists, on the wanted list, coming through the country, or 
coming through the border. We are working with State and the 
Department of Homeland Security to improve that system.
    Senator Gregg. I appreciate that but what are we actually 
doing?
    Mr. Mueller. We are meeting to decide what the standard 
will be down the road, taking into account that the 10-rolled 
print is the gold standard which everybody would like and 
looking at the practicality both of the software, the hardware 
and what it would mean to allowing persons through our borders 
of having a system that is more substantial than the two-
fingerprint system that we currently have at the borders.
    Senator Gregg. Is it doable to integrate the two systems?
    Mr. Mueller. I think it is. I do believe so. Just in the 
two-print system, I do think it is doable down the road. We are 
exploring----
    Senator Gregg. What do you need to do to do it?
    Mr. Mueller. Developing the technology, and I am not 
intimately familiar with the technology that is being used 
currently, the two in the VISIT system at the borders, but 
developing the technology and the communications capability so 
that given just the two-print system, there can be a timely 
search against the FBI database by a communications carrier.
    Senator Gregg. Maybe you could have somebody in your group 
meet with Mr. Hutchinson and----
    Mr. Mueller. We are.
    Senator Gregg. Well, I know you are, daily, I am sure, and 
with State and get back to this committee with a proposal as to 
how you plan to do this and a timeframe.
    Mr. Mueller. Yes, sir.
    Senator Gregg. It just seems to us, to me, anyway, that we 
are wasting our resources. We have put a lot of money into it 
and we should be trying to figure out a way to get the two to 
talk to each other. It may not be doable if you have got a 
condition that you are going to have to get people through the 
checkpoint in 13 seconds or whatever the condition is, but it 
would seem to me that if there is a way to do it and we need 
money to do it from a technology standpoint, we could find the 
money, because we would hate to see that database just sit 
there and not be accessed.
    I appreciate it. You have been very courteous with your 
time today. Is there anything further you wish to add?
    Mr. Mueller. The only item I didn't address is the concern 
that you raised, and that is about the adaptability of the 
Bureau to the new mission. You read these books about taking a 
corporation or an agency or a large organization through a 
transformation. The books will tell you that there are 30 
percent that welcome the transformation and see the future, 
there are 30 percent that have to be persuaded, and there are 
30 percent that like the old ways.
    There are agents in the FBI, without a question of a doubt, 
who enjoyed what they were doing before, perhaps enjoyed doing 
it more than some of the things they are called upon to do at 
this point, and there will be for a number of years. But I do 
believe that just about every FBI agent understands the 
responsibility that the Bureau has, along with other agencies, 
to prevent another terrorist attack, they understand that 
responsibility, the necessity of transforming the organization, 
the new mission, and are pursuing that new mission as we have 
missions in the past.
    It was something new for us to develop a game plan to 
address La Cosa Nostra or the Mob, to change from doing bank 
robberies and bank embezzlements to an extended multi-year 
integrated multi-agency plan to address a threat against the 
United States and we adapted then. I do believe we are 
adapting, and will continue to adapt with this new challenge 
thanks to the dedication and loyalty of FBI agents and analysts 
and support staff to the Bureau, the Government, the American 
people, and their understanding the importance of our role in 
protecting the national security of the United States.
    With that, thank you, sir.
    Senator Gregg. We thank you for your service and thank your 
agents for their service and the people who work at the FBI and 
do an extraordinary job. It is very much appreciated. To the 
extent we criticize you, we hope it is taken as constructive. 
That is our goal. Thank you.
    Mr. Mueller. Thank you, sir.

STATEMENT OF GLENN A. FINE, INSPECTOR GENERAL, 
            DEPARTMENT OF JUSTICE
    Senator Gregg. Our next panel will include members of the 
Government Accountability Office and the Inspector General.
    We have with us Glenn Fine, who is the Inspector General 
for the Department of Justice; Dr, Randolph Hite and Dr. Laurie 
Ekstrand, who both work for the Government Accountability 
Office. All of them specialize, obviously, in making sure that 
various agencies function efficiently and effectively and focus 
especially on the issue of the FBI and other agencies 
responsible for counterterrorism.
    We appreciate you taking the time to come and testify. You 
all were here to hear, I believe, Director Mueller's thoughts 
and what we would like to do is get your thoughts on the 
specific issues of technology and how it is being put in place 
at the FBI and what we can do to make sure we don't have these 
continued cost overruns, and more importantly, what we can do 
to make sure the technology works the way it is supposed to 
work.
    We will start with Mr. Fine, anything you wish to say, or 
if you want to submit a statement, that is fine, too.
    Mr. Fine. Thank you, Mr. Chairman. Thank you for inviting 
me to testify about the FBI's efforts to modernize its 
information technology systems. Within the past 2 years, the 
Office of the Inspector General has issued several reports that 
examined IT issues in the FBI, including a review of the FBI's 
management of its IT investments as well as the implementation 
of the FBI's most important IT project, Trilogy.
    My written statement provides a detailed description of the 
history of delays and cost overruns in Trilogy. My statement 
also describes other reviews that the OIG recently has 
completed or has ongoing in the FBI, including a report 
describing the delays in integrating IDENT, the Department of 
Homeland Security's automated fingerprint identification 
database, with IAFIS, the FBI's fingerprint database; a review 
of the FBI's use of investigative resources before and after 
the September 11 attacks; a report examining the FBI's failure 
to detect the espionage of Robert Hanssen for more than 20 
years; and ongoing reviews of other important FBI programs, 
such as the FBI laboratory's DNA unit, the FBI's Language 
Translation Services Program, and the FBI's Foreign Legats, 
among others.
    You have asked me in my oral remarks this morning to 
briefly focus on the OIG's assessment of the Trilogy project. 
Trilogy is essential to modernizing the FBI's archaic and 
inadequate computer systems. The FBI's current systems do not 
permit FBI employees to readily access and share information 
throughout the FBI. Without this capability, the FBI cannot 
efficiently investigate criminal cases, effectively analyze 
intelligence information, and bring together all the 
investigative information in the FBI's possession to solve 
crimes and help prevent future terrorist attacks.
    The Trilogy project, as you know, has three main 
components: One, the upgrade of the FBI's hardware and 
software; two, the upgrade of the FBI's communications network; 
and three, the upgrade and consolidation of the FBI's five most 
important investigative applications.
    Our reviews have found that Trilogy has grown from what in 
the year 2000 was estimated to be a 3-year, $379 million 
project to what is now a $581 million project that may not even 
be fully completed before the end of this calendar year. Senior 
FBI IT managers recently told OIG auditors that the 
infrastructure components, the first two components of Trilogy, 
should be completed by April 30. However, there is still a 
significant risk of missing even the latest deadline.
    The third component of Trilogy, upgrading and consolidating 
the investigative applications, is still ongoing. The most 
important part of this component is the Virtual Case File, 
which will replace the FBI's inadequate Automated Case Support 
System.
    In our view, the reasons for the repeated delays and the 
increased costs in the Trilogy project include poorly defined 
requirements as Trilogy was developed, the lack of firm 
milestones and penalties to the contractors for missing 
deadlines, the FBI's weak IT investment management structure 
and processes, the lack of a qualified project integrator to 
manage the two main Trilogy contractors and take responsibility 
for the overall integrity of the final product, and the lack of 
FBI management continuity and oversight, due in part to the 
frequent turnover of senior FBI IT managers.
    These problems with Trilogy were consistent with the OIG's 
repeated warnings about the FBI's IT systems and its management 
processes in general. A variety of OIG reports have identified 
significant deficiencies in the FBI's IT program, including 
fragmented management, inadequate training, and a failure to 
adequately respond to recommendations regarding IT 
improvements.
    Although the FBI has had a difficult time developing and 
deploying Trilogy, at this juncture the completion of at least 
the initial phase of Trilogy is in site. Director Mueller has 
made Trilogy a priority and has focused personal attention on 
this project, to his credit. In addition, the FBI recently 
appears to have focused its attention on addressing many of the 
weaknesses we have described. Both the FBI and the Department 
of Justice now have Chief Information Officers who appear 
committed to a no-nonsense approach to managing the Trilogy 
project.
    Once completed, Trilogy will significantly enhance the 
FBI's ability to manage its cases and share information. But 
more progress is still needed on Trilogy's user applications, 
particularly the Virtual Case File, and completion of Trilogy 
will not signal the end of the FBI's IT modernization effort. 
Trilogy will only lay the foundation for future IT 
advancements.
    The FBI must focus sustained attention on ensuring that it 
has state-of-the-art information technology systems to permit 
FBI employees to effectively process and share information. As 
the FBI looks to the future to meet the continuing threat of 
terrorism and the increased sophistication of domestic and 
international crime, it must give its employees the IT tools 
they need to perform their mission effectively and efficiently. 
Given the importance of this issue, the OIG will continue to 
review and report on the FBI's progress or lack of progress in 
this critical area.
    That concludes my prepared statement and I would be happy 
to answer any questions, Mr. Chairman.

                           PREPARED STATEMENT

    Senator Gregg. I have got a lot of questions, but I want to 
hear from the whole panel first.
    [The statement follows:]

                  Prepared Statement of Glenn A. Fine
    Mr. Chairman, Senator Hollings, and Members of the Subcommittee on 
Commerce, Justice, State and the Judiciary:

                              INTRODUCTION

    I appreciate the opportunity to testify before the Subcommittee as 
it examines the Federal Bureau of Investigation's (FBI) fiscal year 
2005 budget request. I have been asked to speak about the FBI's 
progress in modernizing its information technology (IT) systems, 
specifically its agency-wide IT modernization project known as Trilogy. 
Within the past two years, the Office of the Inspector General (OIG) 
has issued several reports that examined IT-related issues at the FBI, 
including the FBI's responsiveness to previous OIG recommendations 
dealing with IT issues and a review of the FBI's IT Investment 
Management process. As part of the latter review, issued in December 
2002, we examined the FBI's implementation of Trilogy. In addition, 
last month we opened a new audit that is currently examining the 
overall management of the Trilogy project and the extent to which 
Trilogy will meet the FBI's current and longer-term IT requirements.
    Our overall assessment is that the FBI has had a difficult time 
trying to modernize its information technology systems, and has 
experienced a series of delays, missed deadlines, and cost increases. 
However, at this juncture, the completion of Trilogy is in sight. 
Director Mueller has made Trilogy a priority and has focused personal 
attention on this project, to his credit. Although more progress is 
needed on Trilogy's user applications, particularly the Virtual Case 
File, once completed Trilogy will significantly enhance the FBI's 
ability to manage its cases and share information.
    Trilogy and the first version of the Virtual Case File system are 
just the start of the FBI's information technology modernization 
effort. In the years ahead, the FBI will need to focus even greater 
attention to ensure that it implements state-of-the-art information 
technology to allow its employees to effectively perform their critical 
mission.
    In the first section of my statement, I will provide a brief 
overview of the Trilogy project, describe the history of the FBI's 
progress in developing Trilogy, and summarize the OIG's preliminary 
assessment of the reasons for the delays in its implementation. In the 
next section, I will discuss the results of other, recent OIG reviews 
of the FBI's IT management process. I will conclude the statement by 
providing a brief overview of recently completed and ongoing OIG 
reviews that examine other important FBI issues that may be useful to 
this Committee.

                          THE TRILOGY PROJECT

Overview
    Trilogy is the largest of the FBI's IT projects and has been 
recognized by the FBI and Congress as essential to modernizing the 
FBI's archaic and inadequate computer systems. One component of 
Trilogy, the Virtual Case File, will replace one of the FBI's 
inadequate database systems, the Automated Case Support (ACS) system, 
which is used as a case tracking system. Among its many shortcomings, 
ACS does not permit FBI agents, analysts, and managers to readily 
access and share case-related information throughout the FBI. Without 
this capability, the FBI cannot efficiently investigate criminal cases, 
analyze intelligence information, and bring together all of the 
investigative information in the FBI's possession to help prevent 
future terrorist attacks.
    The Trilogy project has three main components:
  --Information Presentation Component (IPC)--intended to upgrade the 
        FBI's hardware and software;
  --Transportation Network Component (TNC)--intended to upgrade the 
        FBI's communication networks; and
  --User Applications Component (UAC)--intended to upgrade and 
        consolidate the FBI's five most important investigative 
        applications.
    The first two components of Trilogy provide the infrastructure 
needed to run the FBI's various user applications. The User Application 
component of Trilogy will upgrade and consolidate the FBI's 
investigative applications, beginning with the five most critical. 
However, it is important to note that Trilogy will not replace the 37 
other less-critical investigative applications or the FBI's 
approximately 160 other non-investigative applications. Rather, Trilogy 
is intended to lay the foundation so that future enhancements will 
allow the FBI to achieve a state-of-the-art IT system that integrates 
all of the agency's investigative and non-investigative applications.

Project Schedule and Costs
    In the last several years, the FBI's Trilogy project has suffered a 
continuing series of missed completion estimates and associated cost 
growth. In November 2000, Congress appropriated $100.7 million for the 
initial year of what was estimated to be a 3-year, $379.8 million 
project. The FBI hired DynCorp in May 2001 (in March 2003, DynCorp was 
merged into Computer Sciences Corporation (CSC)) as the contractor for 
the IPC/TNC infrastructure components of Trilogy. At that time, the 
scheduled completion date for the Trilogy infrastructure was May 2004. 
In June 2001, the FBI hired Science Applications International 
Corporation (SAIC) to complete the user applications component of 
Trilogy--including the Virtual Case File--with a scheduled completion 
date of June 2004.

            Infrastructure Components
    A stable schedule for Trilogy was never firmly established for much 
of the project's history. Beginning in 2002, the FBI's estimated dates 
for completing the Trilogy project components began to swing back and 
forth and were revised repeatedly. The FBI moved up the completion date 
for deploying the Trilogy infrastructure to June 2003 from the original 
date of May 2004 because the September 11, 2001, terrorist attacks had 
increased the urgency of completing Trilogy. Later, the FBI said the 
infrastructure would be completed by December 31, 2002. In February 
2002, the FBI informed Congress that with an additional $70 million, 
the FBI could accelerate the deployment of Trilogy. According to the 
FBI, this acceleration would include completion of the two 
infrastructure components by July 2002 and rapid deployment of the most 
critical analytical tools in the user applications component. Congress 
therefore supplemented the FBI's fiscal year 2002 Trilogy budget by $78 
million, for a total of $458 million, to accelerate the completion of 
all three components.
    The promised milestone for completing the infrastructure components 
slipped from July 2002 to October 2002 and then to March 2003. On March 
28, 2003, CSC completed the Wide Area Network for Trilogy. In April 
2003, Director Mueller reported to Congress that more than 21,000 new 
desktop computers and nearly 5,000 printers and scanners had been 
deployed. He also reported that the Trilogy Wide Area Network--with 
increased bandwidth and three layers of security--had been deployed to 
622 sites. While this deployment improved the hardware available to FBI 
staff, it provided no new software capability.
    In April 2003, the FBI and CSC agreed to a statement of work for 
the remaining infrastructure components of Trilogy, including servers, 
upgraded software, e-mail capability, and other computer hardware, with 
final engineering change proposals and a completion date of October 31, 
2003. In August 2003, CSC informed the FBI that the October 2003 
completion date would slip another two months to December 2003. In 
October 2003, CSC and the FBI agreed that the December 2003 date again 
would slip.
    The General Services Administration's Federal Systems Integration 
and Management Center, known as FEDSIM, competes, awards, and manages 
contracts for its federal agency clients. FEDSIM had used its Millennia 
contracting vehicle to award contracts for Trilogy on behalf of the 
FBI. In November 2003, the General Services Administration formally 
announced that CSC failed to meet the deadline for completing work on 
the infrastructure portions of Trilogy that are required to support the 
user applications, including the Virtual Case File.
    On December 4, 2003, CSC signed a commitment letter agreeing to 
complete its infrastructure portions of the Trilogy project by April 
30, 2004, for an additional $22.9 million, including an award fee of 
over $4 million. An award fee is used when the government wants to 
motivate a contractor with financial incentives. The FBI covered these 
additional costs by reprogramming funds from other FBI appropriations. 
In January 2004, the FBI converted the agreement with CSC to a revised 
statement of work providing for loss of the award fee if the April 30, 
2004, deadline is not met. In addition, the revised statement of work 
provides for cost sharing at a rate of 50 percent for any work 
remaining after the April 30 deadline.
    As of early March 2004, CSC was in the process of installing in the 
FBI's field offices the remaining computer hardware infrastructure 
needed to use the previously deployed Wide Area Network. If completed 
by April 30, 2004, the original target set in 2001 for the 
infrastructure components of Trilogy will be met, but the accelerated 
schedule funded by Congress will be missed by some 22 months.
    Senior FBI IT managers recently told OIG auditors that the 
infrastructure components appear to be on target for meeting the latest 
milestone of April 30, 2004, although they cautioned that there is a 
risk of missing this latest deadline because the schedule is ambitious 
and there is no slack time. However, other FBI officials involved in 
the project believed that CSC's ability to complete the remaining 
engineering work by April 30, 2004, is an open question. A contractor 
recently hired by the FBI's Chief Information Officer to facilitate 
solutions with the two Trilogy contractors described the April 30 
deadline as ``a real management challenge.''

            User Applications
    With respect to development of the Virtual Case File, the first of 
three system deliveries for the Virtual Case File occurred in December 
2003. However, it was not functional and therefore was not accepted by 
the FBI. FBI officials told our auditors that, as of January 2004, 17 
issues of concern pertaining to the functionality and basic design 
requirements of the Virtual Case File needed to be resolved before the 
Virtual Case File could be deployed. According to FBI personnel working 
on the resolution of these problems, the 17 issues were corrected as of 
March 7, 2004. However, significant work still remains on addressing 
security aspects and records management issues in the Virtual Case 
File.
    The FBI is now requiring the contractor, SAIC, to provide a new, 
realistic completion date and cost estimate for delivery of a usable 
Virtual Case File. Based on this information, expected within the next 
week or two, the FBI intends to renegotiate the contract for the user 
applications component to include firm, verifiable milestones and 
penalties for missing the milestones.
    The remaining work required to actually deploy a usable and 
functional initial version of the Virtual Case File appears 
significant. The Virtual Case File will be installed in stages, with 
the first stage including the migration of the ACS database. However, 
our conversations with FBI IT managers suggest uncertainty about the 
completion dates for each stage. As noted above, the timetable is 
currently being negotiated with SAIC.
    No one interviewed by our auditors in the FBI, the Department, or 
the General Services Administration thought the Virtual Case File would 
be ready when the supporting infrastructure for the system is scheduled 
to be in place as of April 30, 2004. They said that to speed the 
delivery of at least a basic functional Virtual Case File system, it is 
possible that some features initially intended as part of the first 
delivery of the system will have to be deferred until later. Many FBI 
managers told us that they are uncertain whether a functional, complete 
version of the VCF will be deployed before the end of calendar year 
2004.

Trilogy Cost
    In addition to frequent schedule slippages, Trilogy costs have 
grown considerably. To accelerate the project, the original estimated 
project cost of $380 million increased by $78 million to $458 million. 
Through reprogramming and other funding in fiscal year 2003, the 
currently authorized total funding level is $581 million. According to 
an FBI report, as of January 2004 the remaining available funds were 
about $12 million. As of March 19, 2004, the FBI's Chief Information 
Officer believed that current funding appears to be adequate to 
complete Trilogy. However, in our view, until the user applications 
contractor provides an updated cost estimate, it will be difficult to 
gauge the approximate total cost of the Trilogy project, particularly 
since enhanced versions are planned sometime after the initial 
deployment.
    Further, the FBI's ability to track Trilogy costs adequately was 
questioned by a March 3, 2004, FBI inspection report. The report 
recognized internal control weaknesses and said that Trilogy-related 
financial records are fragmented and decentralized with no single point 
of accountability. Because the FBI's Financial Management System does 
not capture detailed Trilogy-related expenditures, FBI auditors could 
not ascertain a ``global financial profile'' of Trilogy.

Problems in Trilogy's Development
    Based on the OIG's previous audit work that examined the FBI's IT 
management process, together with the preliminary results of our 
ongoing audit of Trilogy, we believe the reasons for the delays and 
associated increased costs in the Trilogy project include: lack of firm 
milestones and penalties for missing milestones; lack of a qualified 
project integrator who would manage the interfaces between the two 
contractors and would have responsibility for the overall integrity of 
the final product; weak IT investment management structure and 
processes; until recently, lack of management continuity and oversight 
due, in part, to the frequent turnover of FBI IT managers and the FBI's 
focus on its other important law enforcement challenges; poorly-defined 
requirements that evolved as the project developed; and unrealistic 
scheduling of tasks by the contractors.

            Contract Weaknesses
    The FBI's current and former Acting Chief Information Officers told 
us that the primary reason for the schedule and cost problems 
associated with the infrastructure components of Trilogy is a weak 
statement of work in the contract with CSC. In addition, despite the 
use of two contractors to provide three major project components, until 
recently the FBI did not hire a project integrator to manage contractor 
interfaces and take responsibility for the overall integrity of the 
final product. According to FBI IT managers, FBI officials acted as the 
project integrator even though they had no experience to perform such a 
role.
    According to FBI IT and contract managers, the ``cost plus'' award 
fee type of contracts used for Trilogy did not require specific 
completion milestones, did not include critical decision review points, 
and did not provide for penalties if the milestones were not met. Under 
cost plus award fee contracts, the contractors are only required to 
make their best effort to complete the project. Furthermore, if the FBI 
does not provide reimbursement for the contractors' costs, under these 
agreements the contractors can cease work. Consequently, in the view of 
the FBI managers with whom we spoke, the FBI was largely at the mercy 
of the contractors.
    FEDSIM representatives explained that a cost-plus contract is used 
for large projects where the requirements and the costs are not defined 
sufficiently to allow for a firm fixed-price contract. The FEDSIM's 
Millennia contracting vehicle currently has nine ``industry partners'' 
who are eligible to bid on federal projects. Under Millennia, contracts 
can be awarded relatively quickly because of the limited number of 
potential bidders. Because the FBI wanted a quick contract and did not 
have highly defined requirements, it used the cost plus award fee 
contract vehicle.
    In our ongoing audit of Trilogy, we plan to evaluate the effect of 
the contractual terms on the schedule, cost, and performance of the 
project.

            IT Investment Management Weaknesses
    In addition to the lack of controls built into the statements of 
work for Trilogy, the FBI's investment management process was not well 
developed. Had the FBI developed a mature IT investment management 
process, the Trilogy project likely could have been completed more 
efficiently and timely. The investment management process at the FBI is 
still in the early stages of development. Absent a mature IT investment 
process, FBI IT investment efforts are at risk for significant 
developmental problems.

            Management Continuity and Oversight
    Part of the problem acknowledged by the FBI for not acting timely 
on IT recommendations from the OIG over the years has been the turnover 
of key FBI managers. Similarly, we believe that turnover in key 
positions affected the FBI's ability to manage and oversee the Trilogy 
project.
    Since November 2001, 14 different key IT managers have been 
involved with the Trilogy project, including 5 Chief Information 
Officers or Acting Chief Information Officers and 9 individuals serving 
as project managers for various aspects of Trilogy. This lack of 
continuity among IT managers contributed to the problems of ensuring 
the effective and timely implementation of the Trilogy project. 
According to contractor personnel who are advising the FBI on Trilogy, 
the FBI also suffered from a lack of engineering expertise, process 
weaknesses, and decision-making by committees instead of knowledgeable 
individuals. In the contractors' opinion, weak government contract 
management has created more of the problem with Trilogy than the terms 
of the contracts.
    We have spoken to many officials in the FBI, the Department of 
Justice, and FEDSIM who believe that the FBI has recently improved its 
management and oversight of Trilogy and of information technology in 
general. The FBI appears to have hired from other federal agencies and 
from private industry capable individuals, including the current Acting 
Chief Information Officer and several key project management personnel. 
Officials within both the Department of Justice and the FBI now are 
optimistic that the FBI's current information technology management 
team has the talent to solve the FBI's problems in this area. We also 
have been impressed with the quality of the FBI's current managers of 
Trilogy, including the Acting Chief Information Officer. However, we 
believe it essential for the FBI to maintain continuity in the 
management of Trilogy.

            Lack of Defined Design Requirements
    One of the most significant problems with managing the schedule and 
costs of the Trilogy project was the lack of a firm understanding of 
the design requirements by both the FBI and the contractor. Not only 
were Trilogy's requirements ill defined and evolving as the project 
progressed, but certain events triggered the need to change initial 
design concepts. For example, after September 11, 2001, Director 
Mueller recognized that the initial concept of simply modifying the old 
Automated Case Support system would not serve the FBI well over the 
long run, and the FBI created the plans for the Virtual Case File. 
Other changes to the design occurred because of the experiences and 
lessons learned from the response to the September 11 terrorist 
attacks, the Hanssen espionage case, and the belated production of 
documents to defense attorneys in the Oklahoma City bombing case.
    However, during the initial years of the project, the FBI had no 
firm design baseline or roadmap for Trilogy. The FBI also may have 
overly relied on contractor expertise to help define the requirements, 
while the contractor may have overly relied on the FBI to provide 
direction for the Trilogy design.

            Unrealistic Scheduling of Tasks
    According to an FBI official monitoring development of the Trilogy 
infrastructure, CSC has had problems producing an appropriate resource-
driven work schedule. Furthermore, SAIC is using a scheduling tool for 
development of the user applications component with which the FBI is 
unfamiliar. In our view, unrealistic scheduling of project tasks has 
led to a series of raised expectations, followed by frustration when 
the completion estimates were missed. We intend to examine the 
schedules more closely in our ongoing audit of the Trilogy project.
Prior OIG Audits on FBI IT Investment Management Practices and FBI's 

        Implementation of IT Recommendations
    The problems demonstrated by the Trilogy project were consistent 
with our concerns about the FBI's IT systems and management process in 
general. Since 1990, various OIG reports have identified significant 
deficiencies with the FBI's IT program, including outdated 
infrastructures, fragmented management, ineffective systems, and 
inadequate training. Within the past 18 months, the OIG completed two 
reviews that looked at these and other aspects of the FBI's efforts to 
modernize its IT systems, one issued in December 2002 and the other 
issued in September 2003.
    The first audit, issued in December 2002, examined the FBI's IT 
investment management practices. The OIG found that, in the past, the 
FBI had not effectively managed its IT investments because it failed 
to: (1) effectively track and oversee the costs and schedules of IT 
projects; (2) properly establish and effectively use IT investment 
boards to review projects; (3) inventory the existing IT systems and 
projects; (4) identify the business needs for each IT project; and (5) 
use defined processes to select new IT projects. We concluded that 
despite efforts to improve its IT management, the FBI had not fully 
implemented the above five critical processes associated with effective 
IT investment management. Consequently, the FBI continued to spend 
hundreds of millions of dollars on IT projects without adequate 
assurance that the projects would meet their intended goals.
    Our audit made eight recommendations with respect to Trilogy, 
including urging the FBI to establish cost, schedule, technical, and 
performance baselines and track significant deviations from these 
baselines, and taking corrective action as necessary. The FBI agreed 
with all eight of the Trilogy-related recommendations, with one minor 
exception, and to date has taken corrective action on three.
    In a September 2003 audit, the OIG comprehensively examined the 
FBI's implementation of the OIG's prior IT-related recommendations. 
While the FBI had made substantial progress on many of the 
recommendations, implementing 93 of 148 total recommendations, we 
concluded that full implementation of the remaining recommendations was 
needed to ensure that the FBI's IT program effectively supported the 
FBI's mission.

OIG Conclusions on Trilogy
    In sum, we found various reasons for Trilogy's delays and problems. 
Initially, the FBI did not have a clear vision of what the FBI's 
Trilogy modernization project should achieve, let alone specific design 
requirements, and the contractors were not held to a firm series of 
achievable milestones. The FBI's investment management process also 
left it ill equipped to ensure that all three components of Trilogy 
were developed in an integrated fashion. Moreover, at the outset, the 
FBI and others did not provide consistent or effective management of 
Trilogy, leading to technical and scheduling problems.
    The FBI recently appears to have focused attention on addressing 
much of these weaknesses. Our preliminary assessment is that both the 
FBI and the Department of Justice now have Chief Information Officers 
who are committed to a successful implementation of Trilogy, with a no-
nonsense approach to managing the Trilogy contracts and a commitment to 
closely monitor its progress. The FBI also appears to be attempting to 
ensure that Trilogy is completed as soon as possible, and the General 
Services Administration also is participating fully in this oversight 
role. In addition, the Department of Justice Chief Information Officer 
meets regularly with FBI and GSA staff to oversee progress on Trilogy. 
However, significant work remains, particularly on the Virtual Case 
File, which may not be fully implemented by the end of this year. 
Because of the importance of the Trilogy project, the OIG will continue 
to monitor the FBI's implementation of Trilogy.

                   ADDITIONAL OIG REVIEWS IN THE FBI

    In addition to these IT reviews, the OIG continues to conduct wide-
ranging reviews of other priority issues in the FBI. The following are 
a few examples of recently completed reviews in the FBI, as well as 
ongoing OIG reviews, that may be of interest to the Committee.

Recently Completed OIG Reviews
    IDENT/IAFIS: The Batres Case and the Status of the Integration 
Project.--In early March 2004, the OIG issued a special report that 
examined the status of efforts to integrate IDENT, the Department of 
Homeland (DHS) Security's automated fingerprint identification 
database, with IAFIS, the FBI's automated fingerprint identification 
database. The OIG review described the tragic consequences that can 
result because these immigration and criminal fingerprint 
identification systems are not integrated. Victor Manual Batres, an 
alien who had an extensive criminal history, was caught two times by 
the Border Patrol attempting to enter the United States illegally. Both 
times the Border Patrol voluntarily returned him to Mexico without 
checking his criminal record. He came back into the United States, 
where he raped and murdered a nun. During this period, the Border 
Patrol never learned of his extensive criminal history, which should 
have subjected him to detention and prosecution, partly because IDENT 
and IAFIS are not linked.
    The OIG has reported extensively on the slow pace of the 
integration of IDENT and IAFIS in several reports over the past few 
years. In the Batres report, we noted that according to the Department 
and DHS timetable provided to us by integration project managers, full 
integration of the two systems was not scheduled to be completed for 
many years. Since issuance of our Batres report several weeks ago, DHS 
leaders have publicly stated that the integration process will be 
expedited, and that hardware to allow Border Patrol agents to check 
detained aliens in both IDENT and IAFIS will be provided to Border 
Patrol stations on an expedited timetable. However, additional issues 
remain to be resolved, such as access to DHS's immigration databases by 
the FBI and state and local officials and questions about what 
fingerprint information will be made available to immigration 
inspectors at ports of entry.
    The FBI's Efforts to Improve the Sharing of Intelligence and Other 
Information.--A December 2003 OIG audit examined the FBI's efforts to 
enhance its sharing of intelligence and law enforcement information 
with federal, state, and local officials. The audit noted that 
fundamental reform with regard to sharing this information is under way 
at the FBI. The audit also found that the FBI has taken a series of 
actions to improve its ability to communicate information within the 
FBI, analyze intelligence, and disseminate information outside the FBI. 
However, the OIG audit described continued obstacles to the FBI's 
reform efforts and cited the need for: (1) improving information 
technology; (2) improving the FBI's ability to analyze intelligence; 
(3) overcoming security clearance and other security issues concerning 
the sharing of information with state and local law enforcement 
agencies; and (4) establishing policies and procedures for managing the 
flow of information.
    FBI Casework and Human Resource Allocation.--A September 2003 OIG 
audit examined the FBI's use of resources in its investigative programs 
over a 7-year period--6 years prior to September 11, 2001, and 9 months 
after that date. The audit provided detailed statistics on the FBI's 
allocation of resources to its ten program areas during this period. It 
also examined the FBI's planned allocation of resources during this 
same period compared to the actual allocation of resources. In 
addition, the OIG audit detailed the types and numbers of cases the FBI 
investigated in these program areas. Using data from the FBI's systems, 
the OIG found that although the FBI had identified combating terrorism 
as its top priority in 1998, until the September 11 attacks it devoted 
significantly more of its agent resources to traditional law 
enforcement activities, such as white-collar crime, organized crime, 
drug, and violent crime investigations, than to its counterterrorism 
programs.
    In a current follow-up review examining the FBI's use of resources, 
the OIG is examining in greater detail the operational changes in the 
FBI resulting from this ongoing reprioritization effort, including the 
types of offenses that the FBI is no longer investigating at pre-
September 11 levels and the changes in the types of cases worked at 
individual field offices. After completing this follow-up review, the 
OIG plans to open an additional audit to obtain feedback from federal, 
state, and local law enforcement agencies regarding the impact of the 
FBI's reprioritization on their operations.
    Review of the FBI's Performance in Deterring, Detecting, and 
Investigating the Espionage Activities of Robert Philip Hanssen.--In a 
comprehensive special report released in August 2003, the OIG examined 
the FBI's efforts to detect, deter, and investigate the espionage of 
Robert Hanssen, the most damaging spy in FBI history. The OIG review 
concluded that Hanssen escaped detection not because he was 
extraordinarily clever and crafty in his espionage, but because of 
long-standing systemic problems in the FBI's counterintelligence 
program and a deeply flawed FBI internal security program. The review 
also found that the FBI has taken important steps to improve its 
internal security program since Hanssen's arrest, including the 
implementation of a counterintelligence-focused polygraph examination 
program, development of a financial disclosure program, and creation of 
a Security Division. However, the OIG review concluded that some of the 
most serious weaknesses still had not been remedied fully. The OIG is 
continuing to monitor the FBI's response to the recommendations in this 
report.

Ongoing Reviews
    In addition to these recently issued reports, the OIG has 
additional reviews under way that are examining other critical issues 
in the FBI. Examples of these ongoing reviews include the following.
    Terrorist Screening Center.--On September 16, 2003, the President 
established the Terrorist Screening Center (TSC) to consolidate 
terrorist watch lists and provide 24/7 operational support for 
thousands of federal officers who need access to such watch lists. The 
FBI was assigned responsibility to administer the TSC and is working 
with the DHS, the Department of State, the Central Intelligence Agency, 
and other agencies to make the TSC operational. Last week, the OIG 
initiated an audit to examine whether the TSC: (1) has implemented a 
viable strategy for accomplishing its mission; (2) is effectively 
coordinating with participating agencies; and (3) is appropriately 
managing the terrorist-related information to ensure that a complete, 
accurate, and current watch list is developed and maintained.
    Attorney General Guidelines.--In May 2002, the Attorney General 
issued revised guidelines that govern general crimes and criminal 
intelligence investigations. The OIG review is examining the FBI's 
implementation of the four sets of guidelines: Attorney General's 
Guidelines Regarding the Use of Confidential Informants; Attorney 
General's Guidelines on FBI Undercover Operations; Attorney General's 
Guidelines on General Crimes, Racketeering Enterprise and Terrorism 
Enterprise Investigations; and Revised Department of Justice Procedures 
for Lawful, Warrantless Monitoring of Verbal Communications. The OIG 
review seeks to determine what steps the FBI has taken to implement the 
Guidelines, examine how effective those steps have been, and assess the 
FBI's compliance with key provisions of the Guidelines.
    Terrorism Task Forces.--The OIG is examining how the law 
enforcement and intelligence functions of the Department's Terrorism 
Task Forces support their efforts to detect, deter, and disrupt 
terrorism. The review is specifically evaluating the purpose, 
priorities, membership, functions, lines of authority, and 
accomplishments for the FBI's Joint Terrorism Task Forces, National 
Joint Terrorism Task Force, Foreign Terrorist Tracking Task Force, the 
United States Attorneys' Offices' Anti-Terrorism Advisory Councils, and 
the Deputy Attorney General's National Security Coordination Council.
    DNA Laboratory.--The OIG is completing a review that examines the 
failure of a former technician in the FBI Laboratory DNA Analysis Unit 
to complete steps designed to detect contamination in the analysis 
process. In addition, with the assistance of nationally known DNA 
scientists, the OIG is completing a broader assessment of the DNA 
Analysis Unit to determine if vulnerabilities exist in its DNA 
protocols and procedures.
    Language Translation Services.--The OIG is reviewing the FBI's 
language translation services program in light of the FBI's efforts 
after the September 11 terrorist attacks to hire linguists and to use 
technology to handle the increasing backlog of counterterrorism and 
foreign counterintelligence translation work. The OIG review will 
examine the extent and causes of any FBI translation backlog; assess 
the FBI's efforts to hire additional translators; and evaluate whether 
FBI procedures ensure appropriate prioritization of work, accurate and 
timely translations of pertinent information, and proper security of 
sensitive information.
    Intelligence Analysts.--One of the FBI's primary initiatives after 
the September 11 terrorist attacks was to enhance the FBI's analytical 
ability and intelligence capabilities. An OIG audit is examining how 
the FBI hires, trains, and staffs the various categories of FBI 
intelligence analysts. The OIG is reviewing the FBI's progress toward 
meeting hiring, retention, and training goals as well as how analysts 
are used to support the FBI's counterterrorism mission.
    Legal Attache Program.--The FBI's overseas operations have expanded 
significantly in the last decade. The FBI operates offices known as 
Legal Attache or Legats in 46 locations around the world. The primary 
mission of Legats is to support FBI investigative interests by 
establishing liaison with foreign law enforcement agencies. Through 
interviews and visits to several Legats, an OIG review is examining the 
type of activities performed by Legats, the effectiveness of Legats in 
establishing liaison with foreign law enforcement agencies and 
coordinating activities with other law enforcement and intelligence 
agencies overseas, the criteria used by the FBI to determine the 
placement of Legat offices, and the process used for selecting and 
training FBI personnel for Legat positions.
    Smith/Leung Case.--At the request of FBI Director Mueller, the OIG 
is conducting a review of the FBI's performance in connection with 
former FBI Supervisory Special Agent James J. Smith, who recently was 
charged with gross negligence in his handling of national defense 
information. The OIG's review will examine Smith's career at the FBI 
and his relationship with Katrina Leung, an asset in the FBI's Chinese 
counterintelligence program with whom Smith allegedly had a long-term 
intimate relationship. The OIG also will examine a variety of 
performance and management issues related to the Smith/Leung case.

                               CONCLUSION

    The FBI is making significant strides in reevaluating and 
reengineering many of its historic processes and procedures. Central to 
this transformation is the FBI's critical need to modernize its archaic 
IT systems. Development and deployment of the Trilogy system--the 
centerpiece of the agency's IT modernization project--has until 
recently been frustratingly delayed and costly. The delays have left 
FBI managers, agents, analysts, and other employees without the modern 
tools they need. Considering the antiquated information technology 
environment in which they have had to operate for many years, FBI 
employees deserve much credit for what they have been able to 
accomplish.
    Trilogy, when it is finally implemented, will greatly enhance the 
FBI's information technology capabilities. Much of the Trilogy upgrade 
is nearing completion, although the Virtual Case File still needs 
significant effort. However, implementation of Trilogy will not signal 
the end of the FBI's information technology modernization effort. The 
project will lay the foundation for future information technology 
advancements, but constant effort will be needed to ensure that the FBI 
implements and maintains cutting edge technology that permits its 
employees to effectively process and share information. This must 
remain a critical priority for the FBI. The FBI needs to provide 
sustained and careful management of the continuing upgrades to ensure 
that FBI employees have the tools they need to perform their mission. 
The FBI's ability to perform its functions effectively, including 
counterterrorism, counterintelligence, and criminal law enforcement, 
depends to a large degree on the success of the FBI's information 
technology projects. Given the importance of this issue, the OIG will 
continue to review and monitor the FBI's progress in these efforts.

STATEMENT OF LAURIE E. EKSTRAND, DIRECTOR, HOMELAND 
            SECURITY AND JUSTICE ISSUES, GOVERNMENT 
            ACCOUNTABILITY OFFICE
ACCOMPANIED BY RANDOLPH HITE, DIRECTOR, INFORMATION TECHNOLOGY 
            ARCHITECTURE AND SYSTEMS ISSUES, GOVERNMENT ACCOUNTABILITY 
            OFFICE

    Senator Gregg. Dr. Ekstrand?
    Ms. Ekstrand. Thank you, Mr. Chairman. I have a statement, 
a brief oral statement for both Mr. Hite and myself, and this 
statement covers overall progress in transformation, 
specifically in the areas of strategic planning and human 
capital planning, information technology management, and the 
realignment of staff resources to priority areas.
    Let me start with transformation. Overall, we are 
encouraged by the progress that the FBI has made in several 
areas, and of particular note, we want to focus on the 
completion of a new strategic plan and of a human capital plan. 
While for both of these plans we can cite areas where they 
could be improved, on the whole, we believe they contain a 
number of elements of best practice.
    Among the positive elements of the strategic plan include a 
comprehensive mission statement, results-oriented long-term 
goals and objectives, and it delineates priorities. But it 
could be improved by discussions of several additional topics, 
including how success in achieving goals is going to be 
measured. We understand that the FBI is going to augment their 
plan and include some of the information that we are 
recommending and we certainly commend that effort.
    In terms of strategic human capital planning, this also 
includes a number of the principles of sound human capital 
planning. Our main concerns in this area are that, first, the 
FBI has not hired a human capital officer as yet, and second, 
the performance management system for non-SES staff is not 
adequately linked to performance.
    Now let me turn your attention to the FBI's effort to 
leverage the vast potential of information technology, IT, to 
assist the Bureau in transforming how it operates. While the 
FBI has long recognized the potential, as evidenced by sizeable 
sums of money that it has invested in IT projects, not the 
least of which is Trilogy, what it has not recognized, as well, 
as is this: How well the Bureau manages IT will ultimately 
determine how well the Bureau leverages IT as a transformation 
tool.
    Our research has shown that organizations that successfully 
exploit IT as a change agent employ similar approaches in 
managing, including adopting a corporate or agency-wide 
approach to managing IT, having an enterprise architecture, and 
having portfolio-based investment management processes.
    Unfortunately, the FBI has yet to manage its IT efforts in 
this way. As we have previously reported, the absence of such 
an approach to IT management results in IT investments that are 
duplicative, not interoperable, do not support mission goals 
and objectives, and cost more and take longer to implement than 
they should. In the case of the FBI, such cost, schedule, and 
performance problems can be seen in Trilogy.
    Now, to the FBI's credit, its strategic plan and its recent 
proposals and actions recognize longstanding IT management 
shortcomings. That is the good news. The bad news is that until 
these recent steps become institutionalized, the prognosis for 
the FBI's ability to effectively use IT to transform itself is 
uncertain, at best.
    Now, just briefly, let me turn to the staffing of priority 
areas, that is, counterterrorism, counterintelligence, and 
cyber, and the effects on more traditional crime areas, 
specifically drugs, white collar crime, and violent crime.
    The FBI's three top priority areas now deploy about 36 
percent of field agent positions, and this is the largest 
single category of agents. But despite the growth in agents in 
the area, agents from traditional crimes are still needed to 
work all leads, and this is fairly substantial, as Director 
Mueller indicated.
    Now, as would be suspected, the number of counterterrorism 
matters have increased substantially since 9/11. Conversely, 
the number of open matters in drugs, violent crime, and white 
collar crime has diminished. We have ongoing work to develop 
further information concerning potential effects of these 
shifts, particularly in the drug area, and we expect to report 
our findings later this year.
    This concludes our oral statement. Mr. Hite and I would be 
happy to answer any questions.
    Senator Gregg. Did you want to add anything, Mr. Hite?
    Mr. Hite. No, sir. We are fully integrated and 
interoperable up here.

                           PREPARED STATEMENT

    Senator Gregg. That is a first. We appreciate that.
    [The statement follows:]

                Prepared Statement of Laurie E. Ekstrand

                           FBI TRANSFORMATION

FBI CONTINUES TO MAKE PROGRESS IN ITS EFFORTS TO TRANSFORM AND ADDRESS 
                               PRIORITIES

What GAO Found
    We commend the FBI for its progress in some areas of its 
transformation efforts since we last testified on this subject in June 
2003. We believe that commitment from the top, a dedicated 
implementation team, involvement of employees in the process, and the 
achievement of key milestones are encouraging signs of progress. 
However, we continue to encourage the development of a comprehensive 
transformation plan that would consolidate the crosswalks between the 
various aspects of transformation. This could help management oversee 
all aspects of the transformation.
    The FBI's strategic plan has been completed. Overall we found the 
plan has important strengths as well as some areas in which 
improvements could be made. For example, the plan includes key elements 
of successful strategic plans (i.e. a comprehensive mission statement 
and results-oriented, long-term goals and objectives). However, the 
plan is missing some elements that could have made it more informative. 
Officials advised us that some of these elements are available 
elsewhere (i.e. lists of stakeholders and performance measures). The 
absence of these elements makes the plan less comprehensive and useful.
    The FBI has also developed a strategic human capital plan that 
contains many of the principles that we have laid out for an effective 
human capital system (i.e. the need to fill identified skill gaps by 
using personnel flexibilities). However, the FBI has yet to hire a 
human capital officer to manage the implementation of this process and 
the performance management system for the bulk of FBI personnel remains 
inadequate to discern meaningful distinctions in performance.
    The FBI recognizes the importance of information technology (IT) as 
a transformation enabler, making it an explicit priority in its 
strategic plan and investing hundreds of millions of dollars in 
initiatives to expand its systems environment and thereby improve its 
information analysis and sharing. However, FBI's longstanding approach 
to managing IT is not fully consistent with the structures and 
practices of leading organizations. A prime example of the consequences 
of not employing these structures and practices is the cost and 
schedule shortfalls being experienced on Trilogy, the centerpiece 
project to modernize infrastructure and case management applications. 
Recent FBI proposals, plans, and initiatives indicate that it 
understands its management challenges and is focused on addressing 
them.
    Another key element of the FBI's transformation is the realignment 
of resources to better focus on the highest priorities--
counterterrorism, counterintelligence and cyber investigations. The FBI 
resources allocated to priority areas continue to increase and now 
represent its single largest concentration of field agent resources--36 
percent of its fiscal year 2004 field agent positions.
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to address this committee regarding GAO's work assessing the 
Federal Bureau of Investigation's (FBI) transformation efforts. As you 
are well aware, the September 11, 2001, terrorist attacks were the most 
destructive and costly terrorist events that this country has ever 
experienced. The event precipitated a shift in how the FBI uses its 
investigative resources to prevent future terrorist incidents and 
ultimately led to FBI's commitment to reorganize and transform itself. 
Today's testimony follows up on our June 2003 testimony before the 
House Appropriations Subcommittee on Commerce, Justice, State and the 
Judiciary and Related Agencies on the FBI's transformation efforts.\1\
---------------------------------------------------------------------------
    \1\ See U.S. General Accounting Office, FBI Reorganization: 
Progress Made in Efforts, but Major Challenges Continue, GAO-03-759T 
(Washington, D.C.: June 18, 2003).
---------------------------------------------------------------------------
    It also draws on continuing work for the same subcommittee, the 
House Select Committee on Intelligence and several individual 
requestors.
    We will discuss the FBI's: overall progress in transformation, 
efforts to update its strategic plan, development of a strategic human 
capital plan, information technology management capabilities, and 
realignment of staff resources to priority areas and the impact of the 
realignments on the FBI's drug and other criminal investigation 
programs.
    In brief, we commend the FBI for its progress in its transformation 
efforts. We believe that commitment from the top, a dedicated 
implementation team, involvement of employees, and the development of 
strategic and human capital plans are encouraging signs of FBI's 
reorganization progress. However, we want to note some activities that 
may enhance the value of future planning efforts, reiterate the 
importance of developing and tracking measures of progress toward 
achieving goals, discuss the history and future of IT efforts, and the 
shift in resources from the traditional crime areas to the new priority 
areas.
    Our testimony today is based on interviews with management and 
program officials at FBI headquarters during the last 2 years. We also 
interviewed management personnel in FBI field offices; \2\ and obtained 
input from special agents and analysts in FBI field offices last 
spring.\3\ Additionally, to assess the progress that the FBI has made 
in its transformation efforts, we reviewed information from an October 
2003 and March 2004 briefing that the FBI provided to GAO on its 
transformation efforts and FBI's recent strategic plan and strategic 
human capital plan. We compared these documents against GAO's leading 
practices in the areas of organizational mergers and transformations, 
strategic planning, and strategic human capital management.
---------------------------------------------------------------------------
    \2\ We judgmentally selected field offices with the largest number 
of special agent positions to be reallocated either away from drug 
enforcement or to the counterterrorism program areas based on the FBI's 
May 2002 reallocation plans. As a result, we visited the FBI's Atlanta, 
Chicago, Dallas, Denver, Detroit, Los Angeles, Miami, Newark, New York 
City, Phoenix, Sacramento, San Antonio, San Francisco, and Washington 
field offices in 2003 and the Dallas, Miami, and Washington field 
offices in 2004.
    \3\ We obtained input from 176 special agents and 34 analysts. 
These FBI investigative resources were not randomly selected from all 
agents and analysts in the 14 offices we visited. In addition, we did 
not specifically choose the agents who completed our questionnaire. FBI 
field office managers selected agents and analysts to participate in 
our inquiry. Consequently, we consider the questionnaire and interview 
results to be indicators of the FBI's transformation efforts but they 
cannot be generalized to all agents and analysts in these offices or to 
the FBI nationwide.
---------------------------------------------------------------------------
    We focused on assessing the FBI's strategic plan for key elements 
required by the Government Performance and Results Act of 1993 
(GPRA).\4\ GPRA provides a set of practices for developing a useful and 
informative strategic plan that can be applied to any level of the 
federal government to improve the quality and informative value of 
strategic plans to Congress, other key stakeholders, and the staff 
charged with achieving the agency's strategic goals. To make this 
assessment we used criteria we developed for assessing agency strategic 
plans under GPRA.\5\ Our assessment is based on a review of the FBI's 
strategic plan with limited information about the process the FBI 
undertook to develop the plan. We acknowledge that the FBI may be 
addressing these elements in other ways.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 103-62, 107 Stat. 285 (1993).
    \5\ U.S. General Accounting Office, Agencies' Strategic Plans Under 
GPRA: Key Questions to Facilitate Congressional Review, GAO/GGD-10.1.16 
(Washington, D.C.: May 1, 1997). U.S. General Accounting Office, 
Executive Guide: Effectively Implementing the Government Performance 
and Results Act, GAO/GGD-96-118 (Washington, D.C.: June 1996).
---------------------------------------------------------------------------
    We reviewed FBI's strategic plan to see how it addressed six key 
elements: mission statement, long-term goals and objectives, 
relationship between the long-term goals and annual performance goals, 
approaches or strategies to achieve the goals and objectives, key 
external factors that could affect achievement of goals, and use of 
program evaluation to establish or revise strategic goals.
    Our analysis of the FBI's information technology (IT) management 
capabilities is based on our prior work on the FBI's enterprise 
architecture efforts and follow-up work to determine recent progress, 
information from the Justice Inspector General's work on evaluating the 
FBI's IT investment management process, and recent work on the 
organizational placement and authority of the FBI's Chief Information 
Officer (CIO). We also used our prior research of CIO management 
practices of successful organizations and our evaluations of large IT 
modernization efforts similar to the Trilogy program. Further, we 
conducted follow up work with the FBI's program management office to 
determine the cost and schedule overruns for Trilogy.
    To address the effect of the FBI's resource realignments on drug 
and other traditional law enforcement efforts, we analyzed FBI 
budgetary, staffing, and caseload data and interviewed selected FBI, 
Drug Enforcement Administration (DEA), and local law enforcement 
officials.\6\
---------------------------------------------------------------------------
    \6\ We interviewed officials from the National Sheriffs' 
Association, National Association of Chiefs of Police, International 
Association of Chiefs of Police, and local police agencies located in 
most of the cities in which we made FBI field office visits in 2003.
---------------------------------------------------------------------------
    We performed our audit work in accordance with generally accepted 
government auditing standards.

FBI Continues to Make Progress in its Transformation Efforts but Needs 
        a Comprehensive Transformation Plan to Guide Its Efforts
    In our June 2003 testimony on the FBI's reorganization before the 
House Appropriations Subcommittee on Commerce, Justice, State, the 
Judiciary and Related Agencies, we reported that the FBI had made 
progress in its efforts to transform the agency, but that some major 
challenges continued \7\. We also noted that any changes in the FBI 
must be part of, and consistent with, broader, government-wide 
transformation efforts that are taking place, especially those 
resulting from the establishment of the Department of Homeland Security 
and in connection with the intelligence community. We also noted that 
to effectively meet the challenges of the post-September 11, 
environment, the FBI needed to consider employing key practices that 
have consistently been found at the center of successful transformation 
efforts.\8\ These key practices are to ensure that top leadership 
drives the transformation; establish a coherent mission and integrated 
strategic goals to guide the transformation; focus on a key set of 
principles and priorities at the outset of the transformation, set 
implementation goals and a time line to build momentum and show 
progress from day one; dedicate an implementation team to manage the 
transformation process; use the performance management system to define 
responsibility and ensure accountability for change; establish a 
communication strategy to create shared expectations and report related 
progress; involve employees to obtain their ideas and gain their 
ownership for the transformation; and build a world-class organization 
that continuously seeks to implement best practices in processes and 
systems in areas such as information technology, financial management, 
acquisition management, and human capital.
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, FBI Reorganization: Progress 
Made in Efforts to Transform, but Major Challenges Continue GAO-03-759T 
(Washington, D.C.: June 18, 2003).
    \8\ For more information, see U.S. General Accounting Office, 
Results-Oriented Cultures: Implementation Steps to Assist Mergers and 
Organizational Transformation GAO-03-669 (Washington, D.C.: July 2, 
2003).
---------------------------------------------------------------------------
    Today, we continue to be encouraged by the progress that the FBI 
has made in some areas as it continues its transformation efforts. 
Specifically worthy of recognition are the commitment of Director 
Mueller and senior-level leadership to the FBI's reorganization; the 
FBI's communication of priorities; the implementation of core 
reengineering processes to improve business practices and assist in the 
bureau's transformation efforts \9\; the dedication of an 
implementation team to manage the reengineering efforts; the 
development of a strategic plan and a human capital plan; the efforts 
to involve employees in the strategic planning and reengineering 
processes; and the FBI's efforts to realign its activities, processes, 
and resources to focus on a key set of principles and priorities.
---------------------------------------------------------------------------
    \9\ The FBI has core-reengineering processes under way in the 
following areas: (1) strategic planning and execution, (2) capital 
(human and equipment), (3) information management, (4) investigative 
programs, (5) intelligence, and (6) security management. There are 
about 40 business process-reengineering initiatives under these six 
core areas. Appendix I outlines the various initiatives under each core 
area.
---------------------------------------------------------------------------
    While the FBI has embedded crosswalks and timelines in their 
various transformation plans that relate one plan to another, we still 
encourage the development of an overall transformation plan that will 
pull all of the pieces together in one document. This document can be 
both a management tool to guide all of the efforts, as well as a 
communication vehicle for staff to see and understand the goals of the 
FBI. It is important to establish and track intermediate and long-term 
transformation goals and establish a timeline to pinpoint performance 
shortfalls and gaps and suggest midcourse corrections. By demonstrating 
progress towards these goals, the organization builds momentum and 
demonstrates that real progress is being made. We will continue to 
review this issue.

FBI Has Developed a Strategic Plan with a Mission, Strategic Goals, and 
        Approaches That Reflect Its New Priorities
    When we last testified in June 2003, the FBI was in the process of 
compiling the building blocks of a strategic plan. At that time it was 
anticipated that the plan would be completed by the start of fiscal 
year 2004. Although delayed by about 5 months, the FBI has since 
completed its strategic plan.\10\ FBI officials indicated that the 
implementation of two staff reprogrammings and delays in the 
appropriation of its fiscal year 2003 and fiscal year 2004 budget, as 
well as initiatives undertaken to protect the homeland during the war 
in Iraq, delayed the completion of the strategic plan.
---------------------------------------------------------------------------
    \10\ Strategic planning is one of about 40 ongoing reengineering 
projects the FBI has undertaken to address issues related to its 
transformation efforts.
---------------------------------------------------------------------------
    Overall we found the plan has some important strengths as well as 
some areas in which improvements could be made. The strategic plan 
includes key elements of successful strategic plans, including a 
comprehensive mission statement; results-oriented, long-term goals and 
objectives; and approaches to achieve the goals and objectives. The FBI 
plan presents 10 strategic goals that appear to cover the FBI's major 
functions and operations, are related to the mission, and generally 
articulate the results in terms of outcomes the FBI seeks to achieve. 
For example, one of the plan's strategic goals is ``protect the United 
States from terrorist attack;'' another goal is ``reduce the level of 
significant violent crime.'' The plan also lists strategic objectives 
and performance goals for each long-term strategic goal. However, the 
performance goals do not appear to be outcomes against which the FBI 
will measure progress; rather they appear to describe approaches or be 
key efforts that FBI will undertake to achieve its long-term strategic 
goals and objectives.
    Importantly, the plan acknowledges that the FBI faces competing 
priorities and clearly articulates its top 10 priorities, in order of 
priority. The strategic plan also frequently discusses the role 
partnerships with other law enforcement, intelligence, and homeland 
security agencies will play in achieving the plan's goals. The plan 
discusses the FBI's approach to building on its internal capacity to 
accomplish its mission-critical goals by improving management of human 
capital, information technology, and other investigative tools. The 
plan also discusses the external factors, such as global and domestic 
demographic changes and the communications revolution, which have 
driven the development of its strategic goals.

            Strategic Plan Could Be Improved by Discussing Other Key 
                    Elements
    Although the FBI has addressed several key elements in its 
strategic plan, the plan needs more information on other elements of 
strategic planning that we have identified as significant to successful 
achievement of an organization's mission and goals. FBI officials 
indicated that some of these elements are available in other documents 
and were not included in the plan for specific reasons. As the FBI 
moves forward with its new strategic planning and execution process, it 
should consider addressing in its strategic plan the following key 
elements:
    Involving Key Stakeholders.--As we have previously testified, any 
changes at the FBI must be part of, and consistent with, broader 
governmentwide transformation efforts that are taking place, especially 
those resulting from the establishment of the Department of Homeland 
Security and in connection with changes in the intelligence community. 
Successful organizations we studied based their strategic planning, to 
a large extent, on the interests and expectations of their 
stakeholders. Federal agency stakeholders include Congress and the 
administration, other federal agencies, state and local governments, 
third-party service providers, interest groups, agency employees, and, 
of course, the American public. Involving customers served by the 
organization--such as the users of the FBI's intelligence--is important 
as well. The FBI strategic plan does not describe which stakeholders or 
customers, were involved or consulted during the plan's development or 
the nature of their involvement. Such information would be useful to 
understanding the quality of the planning process FBI has undertaken 
and the extent to which it reflect the views of key stakeholders and 
customers. Consultation provides an important check for an organization 
that they are working toward the right goals and using reasonable 
approaches to achieve them.
    Relationship between Strategic and Annual Goals.--Under GPRA, 
agencies' long-term strategic goals are to be linked to their annual 
performance plans and the day-to-day activities of their managers and 
staff. OMB guidance states that a strategic plan should briefly outline 
(1) the type, nature, and scope of the performance goals being included 
in annual performance plans and (2) how these annual performance goals 
relate to the long-term, general goals and their use in helping 
determine the achievement of the general goals. Without this linkage, 
it may not be possible to determine whether an agency has a clear sense 
of how it will assess the progress made toward achieving its intended 
results.
    It is not clear from the plan how the FBI intends to measure its 
progress in achieving the long-term strategic goals and objectives 
because the plan's strategic objectives and performance goals are not 
phrased as performance measures and the plan does not describe or make 
reference to another document that contains annual performance 
measures. The plan also lacks a discussion of the systems FBI will have 
in place to produce reliable performance and cost data needed to set 
goals, evaluate results, and improve performance. According to an FBI 
official and documents the FBI provided, the FBI has developed 
``performance metrics'' for each of its strategic goals.
    External and Internal Factors that Could Affect Goal Achievement.--
While the plan clearly communicates how its forecast of external 
drivers helped to shape the FBI's strategy, the plan does not discuss 
the external and internal factors that might interfere with its ability 
to accomplish its goals. External factors could include economic, 
demographic, social, technological, or environmental factors. Internal 
factors could include the culture of the agency, its management 
practices, and its business processes. The identification of such 
factors would allow FBI to communicate actions it has planned that 
could reduce or ameliorate the potential impact of the external 
factors. Furthermore, the plan could also include a discussion of the 
FBI's plans to address internal factors within its control that could 
affect achievement of strategic goals. The approach the FBI plans to 
take to track its success in achieving change within the agency should 
be an integral part of FBI's strategy. A clear and well-supported 
discussion of the external and internal factors that could affect 
performance could provide a basis for proposing legislative or 
budgetary changes that the FBI may need to accomplish the FBI's goals.
    Role of Program Evaluation in Assessing Achievement of Goals and 
Effectiveness of Strategies.--Program evaluations can be a potentially 
critical source of information for Congress and others in ensuring the 
validity and reasonableness of goals and strategies, as well as for 
identifying factors likely to affect performance. Program evaluations 
typically assess the results, impact, or effects of a program or 
policy, but can also assess the implementation and results of programs, 
operating policies, and practices. The FBI's strategic plan does not 
explicitly discuss the role evaluation played in the development of its 
strategic plan or its plans for future evaluations (including scope, 
key issues, and time frame), as intended by GPRA. The FBI has 
redesigned its program evaluation process and updated the performance 
metric for each program. This information could have been, but was not 
included in the strategic plan. As discussed elsewhere in this 
testimony, the FBI has a series of reengineering efforts under way that 
relate to six core processes they are seeking to transform. A 
discussion of how these reengineering efforts relate to and support the 
achievement of the FBI's strategic goals would be a useful addition to 
the FBI's strategic plan.
    We believe that an organization's strategic plan is a critical 
communication tool and the credibility of the plan can be enhanced by 
discussing, even at a summary level, the approach the organization took 
in addressing these elements.

            FBI Has Involved Employees in the Strategic Planning 
                    Process and Communicated its Priorities
    As noted earlier, employee involvement in strategic planning, and 
transformation in general, is a key practice of a successful agency as 
it transforms. FBI executive management seems to have recognized this. 
Field office managers and field staff we spoke with last year generally 
reported being afforded the opportunity to provide input. For example, 
field management in the 14 field offices we visited in 2003 reported 
that they had been afforded opportunities to provide input into the 
FBI's strategic planning process. In addition, 68 percent of the 
special agents and 24 of the 34 analysts who completed our 
questionnaire in 2003 reported that they had been afforded the 
opportunity to provide input to FBI management regarding FBI 
strategies, goals, and priorities by, among others, participating in 
focus groups or meetings and assisting in the development of the field 
offices' annual reports. FBI managers in the field offices we visited 
and 87 percent of the special agents and 31 of the 34 analysts who 
completed our questionnaire indicated that FBI management had kept them 
informed of the FBI's progress in revising its strategic plan to 
reflect changed priorities.
    FBI management also seems to have been effective in communicating 
the agency's top three priorities (i.e., counterterrorism, 
counterintelligence, and cyber crime investigations) to the staff. In 
addition to the awareness of management staff in FBI headquarters and 
field offices, nearly all of the special agents and all of the analysts 
who answered our questionnaire indicated that FBI executive management 
(i.e., Director Mueller and Deputy Director Gebhardt) had communicated 
the FBI's priorities to their field offices. Management and most of the 
agents we interviewed in the field were aware of the FBI's top three 
priorities.\11\ Further, over 90 percent of special agents and 28 of 
the 34 analysts who completed our questionnaire generally or strongly 
agreed that their field office had made progress in realigning its 
goals to be consistent with the FBI's transformation efforts and new 
priorities.
---------------------------------------------------------------------------
    \11\ Over 80 percent of the special agents and 24 of the 34 
analysts who completed our questionnaire in 2003 ranked 
counterterrorism, counterintelligence, and cyber crime investigations 
as the FBI's first, second, and third priorities, respectively.
---------------------------------------------------------------------------
FBI Has Developed a Strategic Human Capital Plan
    In prior testimony, we highlighted the importance of the 
development of a strategic human capital plan to the FBI's 
transformation efforts, noting that strategic human capital management 
is the centerpiece of any management initiative, including any agency 
transformation effort. We noted that a strategic human capital plan 
should flow from the strategic plan and guide an agency to align its 
workforce needs, goals, and objectives with its mission-critical 
functions. We also noted that human capital planning should include 
both integrating human capital approaches in the development of the 
organizational plans and aligning the human capital programs with the 
program goals. In a September 2003 letter to the FBI director, we 
specifically recommended that the FBI: (1) hire a human capital officer 
to guide the development of a strategic human capital plan and the 
implementation of long-term strategic human capital initiatives and (2) 
replace its current pass/fail performance management system with one 
that makes meaningful distinctions in employee performance.
    Although the FBI has not yet hired a human capital officer, it has 
developed a strategic human capital plan. This plan contains many of 
the principles that we have laid out for an effective human capital 
system.\12\ For example, it highlights the need for the FBI to fill 
identified skill gaps, in such areas as language specialists and 
intelligence analysts, by using various personnel flexibilities 
including recruiting and retention bonuses.\13\ Concerning the hiring 
of a human capital officer, the FBI has efforts under way to recruit 
and hire a qualified candidate.
---------------------------------------------------------------------------
    \12\ U.S. General Accounting Office A Model of Strategic Human 
Capital Management, GAO-02-373SP, Washington, D.C.: (March 2002).
    \13\ U.S. General Accounting Office Human Capital: Effective Use of 
Flexibilities Can Assist Agencies in Managing Their Workforces, GAO-03-
2, Washington, D.C.: (Dec. 6, 2002).
---------------------------------------------------------------------------
    The FBI said that it recognizes the need to review and revise its 
performance management system to be in line with its strategic plan, 
including desired outcomes, core values, critical individual 
competencies, and agency transformation objectives. It also recognizes 
that it needs to ensure that unit and individual performance are linked 
to organizational goals. A key initiative that has been undertaken by 
the FBI in this regard is the planning of a system for the Senior 
Executive Service that is based on, and distinguishes, performance. We 
have not reviewed the Senior Executive performance management system, 
but it should include expectations to lead and facilitate change and to 
collaborate both within and across organizational boundaries are 
critical elements as agencies transform themselves.\14\ As yet, the 
performance management system for the bulk of FBI personnel remains 
inadequate to identify meaningful distinctions in performance. The 
FBI's human capital plan indicates that the FBI is moving in the 
direction of addressing this need, and we are encouraged by this.
---------------------------------------------------------------------------
    \14\ U.S. General Accounting Office, Results-Oriented Cultures: 
Using Balanced Expectations to Manage Senior Executive Performance, 
GAO-02-966 (Washington, D.C.: Sept. 27, 2002).
---------------------------------------------------------------------------
    Clearly, the development of a strategic human capital plan is a 
positive step in this direction. However, the FBI, like other 
organizations, will face challenges as it implements its human capital 
plan. As we have noted before, when implementing new human capital 
authorities, how it is done, when it is done, and the basis on which it 
is done can make all the difference in whether such efforts are 
successful.

Effective Information Technology Management Is Critical to the FBI's 
        Ability to Successfully Transform
    Information technology can be a valuable tool in helping 
organizations transform and better achieve mission goals and 
objectives. Our research of leading private and public sector 
organizations, as well as our past work at federal departments and 
agencies, shows that successful organizations' executives have embraced 
the central role of IT as an enabler for enterprise-wide 
transformation.\15\ As such they adopt a corporate, or agencywide, 
approach to managing IT under the leadership and control of a senior 
executive--commonly called a chief information officer (CIO)--who 
operates as a full partner with the organizational leadership team in 
charting the strategic direction and making informed IT investment 
decisions.
---------------------------------------------------------------------------
    \15\ U.S. General Accounting Office, Maximizing the Success of 
Chief Information Officers: Learning from Leading Organizations, GAO-
01-376G (Washington, D.C.: February 2001) and U.S. General Accounting 
Office, Architect of the Capitol: Management and Accountability 
Framework Needed for Organizational Transformation, GAO-03-231 
(Washington, D.C.: January 2003).
---------------------------------------------------------------------------
    In addition to adopting centralized leadership, these leading 
organizations also develop and implement institutional or agencywide IT 
management controls aimed at leveraging the vast potential of 
technology in achieving mission outcomes. These include using a systems 
modernization blueprint, commonly referred to as an enterprise 
architecture,\16\ to guide and constrain system investments and using a 
portfolio-based approach to IT investment decision making. We have also 
observed that without these controls, organizations increase the risk 
that system modernization projects (1) will experience cost, schedule, 
and performance shortfalls; (2) will not reduce system redundancy and 
overlap; and (3) will not increase interoperability and effective 
information sharing.
---------------------------------------------------------------------------
    \16\ An architecture is a set of descriptive models (e.g., diagrams 
and tables) that define, in business terms and in technology terms, how 
an organization operates today, how it intends to operate in the 
future, and how it intends to invest in technology to transition from 
today's operational environment to tomorrow's.
---------------------------------------------------------------------------
    FBI currently relies extensively on the use of IT to execute its 
mission responsibilities, and this reliance is expected to grow. For 
example, it develops and maintains computerized systems, such as the 
Combined DNA (deoxyribonucleic acid) Index System to support forensic 
examinations, the Digital Collection System to electronically collect 
information on known and suspected terrorists and criminals, and the 
National Crime Information Center and the Integrated Automated 
Fingerprint Identification System to identify criminals. It is also in 
the midst of a number of initiatives aimed at (1) extending data 
storage and retrieval systems to improve information sharing across 
organizational components and (2) expanding its IT infrastructure to 
support new software applications. According to FBI estimates, the 
bureau manages hundreds of systems and associated networks and 
databases at an average annual cost of about $800 million. In addition, 
the bureau plans to invest about $255 million and $286 million in 
fiscal years 2004 and 2005, respectively, in IT services and systems, 
such as the Trilogy project. Trilogy is the bureau's centerpiece 
project to (1) replace its system infrastructure (e.g., wide area 
network) and (2) consolidate and modernize key investigative case 
management applications. The goals of Trilogy include speeding the 
transmission of data, linking multiple databases for quick searching, 
and improving operational efficiency by replacing paper with electronic 
files.
    The FBI Director recognizes the importance of IT to transformation, 
and as such has made it one of the bureau's top 10 priorities.\17\ 
Consistent with this, the FBI's strategic plan contains explicit IT-
related strategic goals, objectives, and initiatives (near-term and 
long-term) to support the collection, analysis, processing, and 
dissemination of information. Further, the FBI's newly appointed CIO 
understands the bureau's longstanding IT management challenges and is 
in the process of defining plans and proposals to effectively execute 
the FBI's strategic IT initiatives. Nevertheless, the bureau's 
longstanding approach to managing IT is not fully consistent with 
leading practices, as has been previously reported by us and others. 
The effect of this, for example, can be seen in the cost and schedule 
shortfalls being experienced on Trilogy.
---------------------------------------------------------------------------
    \17\ For example, see Federal Bureau of Investigation, Statement of 
Robert S. Mueller, III, Federal Bureau of Investigation before the 
Subcommittee for the Departments of Commerce, Justice, and State, the 
Judiciary, and Related Agencies, Committee on Appropriations, House of 
Representatives, (Washington, D.C.: June 2002).
---------------------------------------------------------------------------
            FBI Has Not Had Sustained IT Management Leadership with 
                    Bureauwide Authority
    Our research of private and public sector organizations that 
effectively manage IT shows that they have adopted an agencywide 
approach to managing IT under the sustained leadership of a CIO or 
comparable senior executive who has the responsibility and the 
authority for managing IT across the agency.\18\ According to the 
research, these executives function as members of the leadership team 
and are instrumental in developing a shared vision for the role of IT 
in achieving major improvements in business processes and operations to 
effectively optimize mission performance. In this capacity, leading 
organizations also provide these individuals with the authority they 
need to carry out their diverse responsibilities by providing budget 
management control and oversight of IT programs and initiatives.
---------------------------------------------------------------------------
    \18\ For example, see GAO-03-231 and GAO-01-376G.
---------------------------------------------------------------------------
    Over the last several years, the FBI has not sustained IT 
management leadership. Specifically, the bureau's key leadership and 
management positions, including the CIO, have experienced frequent 
turnover. For instance, the CIO has changed five times in the past 24 
months. The current CIO, who is also the CIO at the Department of 
Justice's Executive Office of the U.S. Attorneys (EOUSA), is 
temporarily detailed to the FBI for 6 months and is serving in an 
acting capacity while also retaining selected duties at EOUSA. In 
addition, the IT official responsible for developing the bureau's 
enterprise architecture, the chief architect, has changed five times in 
the past 16 months. As a result, development and implementation of key 
management controls, such as enterprise architecture, have not 
benefited from sustained management attention and leadership and thus 
have lagged, as described in sections below.
    In addition, the FBI has not provided its CIO with bureauwide IT 
management authority and responsibility. Rather, the authority and 
responsibility for managing IT is diffused across and vested in the 
bureau's divisions. As our research and work at other agencies has 
shown, managing IT in this manner results in disparate, stove-piped 
environments that are unnecessarily expensive to operate and maintain. 
In the FBI's case, it resulted, as reported by Justice's Inspector 
General in December 2002,\19\ in 234 nonintegrated applications, 
residing on 187 different servers, each of which had its own unique 
databases, unable to share information with other applications or with 
other government agencies. According to the acting CIO, the FBI is 
considering merging bureauwide authority and responsibility for IT in 
the CIO's office with the goal of having this in place in time to 
formulate the bureau's fiscal year 2006 budget request. In our view, 
this proposal, if properly defined and implemented, is a good step 
toward implementing the practices of leading organizations. However, 
until it is implemented, we remain concerned that the bureau will not 
be positioned to effectively leverage IT as an bureauwide resource.
---------------------------------------------------------------------------
    \19\ U.S. Department of Justice, Office of the Inspector General, 
Federal Bureau of Investigation's Management of Information Technology 
Investments, Report 03-09 (Washington, D.C.: December 2002).
---------------------------------------------------------------------------
            FBI Does Not Have an Enterprise Architecture but Is Taking 
                    Steps to Develop One
    As discussed in our framework for assessing and improving 
enterprise architecture management,\20\ an architecture is an essential 
tool for effectively and efficiently engineering business operations 
(e.g., processes, work locations, and information needs and flows) and 
defining, implementing, and evolving IT systems in a way that best 
supports these operations. It provides systematically derived and 
captured structural descriptions--in useful models, diagrams, tables, 
and narrative--of how a given entity operates today and how it plans to 
operate in the future, and it includes a road map for transitioning 
from today to tomorrow. Managed properly, an enterprise architecture 
can clarify and help optimize the interdependencies and 
interrelationships among a given entity's business operations and the 
underlying systems and technical infrastructure that support these 
operations; it can also help share information among units within an 
organization and between the organization and external partners. Our 
experience with federal agencies has shown that attempting to modernize 
systems without having an enterprise architecture often results in 
systems that are duplicative, not well integrated, unnecessarily costly 
to maintain, and limited in terms of optimizing mission 
performance.\21\
---------------------------------------------------------------------------
    \20\ U.S. General Accounting Office, Information Technology: A 
Framework for Assessing and Improving Enterprise Architecture 
Management (Version 1.1), GAO-03-584G (Washington, DC: April 2003).
    \21\ See for example, U.S. General Accounting Office, DOD Business 
Systems Modernization: Improvements to Enterprise Architecture 
Development and Implementation Efforts Needed, GAO-03-458, (Washington, 
D.C.: February 2003); Information Technology: DLA Should Strengthen 
Business Systems Modernization Architecture and Investment Activities, 
GAO-01-631 (Washington, D.C.: June 2001); and Information Technology: 
INS Needs to Better Manage the Development of Its Enterprise 
Architecture, GAO/AIMD-00-212 (Washington, D.C.: August 2000).
---------------------------------------------------------------------------
    We reported in September 2003, that the FBI did not have an 
enterprise architecture to guide and constrain its ongoing and planned 
IT investments.\22\ We also reported that the necessary management 
structures and processes--the management foundation, if you will--to 
develop, maintain, or implement an architecture were not in place. At 
the time, the bureau was beginning to build this foundation. For 
instance, the bureau had designated a chief architect, established an 
architecture governance board as its steering committee, and chosen a 
framework to guide its architecture development. However, it had yet to 
complete critical activities such as ensuring that business partners 
are represented on the architecture governance board, establishing a 
formal program office, adopting an architecture development 
methodology, and defining plans for developing its architecture. 
Further, it had not addressed other important activities, including 
developing written and approved architecture policy and integrating 
architectural alignment, into its IT investment management process. FBI 
officials told us then that the architecture was not a top priority and 
it had not received adequate resources and management attention. 
Consequently, we recommended, among other things, that the FBI director 
immediately designate development, maintenance, and implementation of 
an enterprise architecture as a bureau priority and manage it as such.
---------------------------------------------------------------------------
    \22\ U.S. General Accounting Office, Information Technology: FBI 
Needs an Enterprise Architecture to Guide Its Modernization Activities, 
GAO-03-959 (Washington, D.C.: September 2003) and U.S. General 
Accounting Office, Federal Bureau of Investigation's Comments on Recent 
GAO Report on its Enterprise Architecture Efforts, GAO-04-190R 
(Washington, D.C.: November 2003).
---------------------------------------------------------------------------
    Since our report, the FBI has made architecture development an 
explicit imperative in its strategic plan, and it has made progress 
toward establishing an effective architecture program. For instance, 
the FBI director issued a requirement that all divisions identify a 
point of contact that can authoritatively represent their division in 
the development of the architecture. In addition, a project management 
plan has been drafted that identifies roles and responsibilities and 
delineates plans and a set of actions to develop the architecture. The 
FBI is also in the process of hiring a contractor to help develop the 
architecture. Current plans call for an initial version of the 
architecture in June 2004. However, until the enterprise architecture 
is developed, the FBI will continue to manage IT without a bureauwide, 
authoritative frame of reference to guide and constrain its continuing 
and substantial IT investments, putting at risk its ability to 
implement modernized systems in a way that minimizes overlap and 
duplication and maximizes integration and mission support.

            FBI Is Working to Establish Control over IT Resources and 
                    Investments
    Federal IT management law provides an important framework for 
effective investment management. It requires federal agencies to focus 
more on the results they have achieved through IT investments, while 
concurrently improving their acquisition processes. It also introduces 
more rigor and structure into how agencies are to select and manage IT 
projects. In May 2000, GAO issued \23\ a framework that encompasses IT 
investment management best practices based on our research at 
successful private and public sector organizations. This framework 
identifies processes that are critical for successful IT investment, 
such as tracking IT assets, identifying business needs for projects, 
selecting among competing project proposals using explicit investment 
criteria, and overseeing projects to ensure that commitments are met.
---------------------------------------------------------------------------
    \23\ U.S. General Accounting Office, Information Technology 
Investment Management: A Framework for Assessing and Improving Process 
Maturity, Exposure Draft, GAO/AIMD-10.1.23 (Washington, D.C.: May 
2000). In March 2004, GAO updated this version: U.S. General Accounting 
Office, Information Technology Investment Management: A Framework for 
Assessing and Improving Process Maturity, Version 1.1, GAO-04-394G 
(Washington, D.C.: March 2004).
---------------------------------------------------------------------------
    Using GAO's framework, the Inspector General evaluated the FBI's IT 
investment management process in 2002, including a case study of 
Trilogy, and concluded that the process at that time was immature and 
had hindered the bureau's ability to effectively manage IT.\24\ 
Specifically, the Inspector General reported that the bureau lacked a 
basic investment management foundation. For instance, the bureau did 
not have fully functioning investment boards that were engaged in all 
phases of investment management. In addition, the bureau had not yet 
developed an IT asset inventory, the first step in tracking and 
controlling investments and assets. In a January 2004 follow-on 
report,\25\ the Inspector General credited the bureau with developing a 
plan to implement the recommendations and assigning responsibility to 
the Project Management Office to execute it, but noted that the office 
had not been granted authority to carry out this task. Project 
Management Office officials stated that as of February 24, 2004, they 
had not yet been provided such authority. According to the acting CIO, 
the FBI is currently in the process of hiring a contractor to assist 
with implementing all IT investment management processes bureauwide, 
including addressing remaining Inspector General recommendations. Until 
these steps are completed and mature investment processes are in place, 
the FBI will remain challenged in its ability to effectively minimize 
risks and maximize the returns of investments, including ensuring 
projects do not experience cost, schedule, and performance shortfalls.
---------------------------------------------------------------------------
    \24\ Department of the Justice, Office of the Inspector General 
Report 03-09.
    \25\ U.S. Department of Justice Office of the Inspector General, 
Action Required on the Federal Bureau of Investigation's Management of 
Information Technology Investments, Audit Report Number 03-09, 
(Washington, D.C.: January 2004).
---------------------------------------------------------------------------
            Until Effective IT Leadership and Management Controls are 
                    Implemented, Projects Remain at Risk
    As discussed in the previous sections, the FBI has efforts 
proposed, planned and under way that, once implemented, are intended to 
establish an IT leadership and management controls framework that is 
consistent with those used by leading organizations. Until this is 
accomplished, however, the bureau will largely be relying on the same 
management structures and practices that it used in the past and that 
produced its current IT environment and associated challenges. As 
previously stated, these practices increase the risk that system 
modernization projects will not deliver promised capabilities on time 
and within budget. A prime example is Trilogy, the FBI's ongoing effort 
to, among other things, modernize its systems infrastructure and 
investigate case management applications. It consists of three 
components:
  --Transportation Network Component, which is communications network 
        infrastructure (e.g., local area networks and wide area 
        networks, authorization security, and encryption of data 
        transmissions and storage),
  --Information Presentation Component, which is primarily desktop 
        hardware and software (e.g., scanners, printers, electronic 
        mail, web browser), and
  --User Applications Component, which includes the investigative case 
        management applications \26\) that are being consolidated and 
        modernized. This component is commonly referred to as the 
        Virtual Case File, which when completed, is to allow agents to 
        have multimedia capability that will enable them to among other 
        things scan documents and photos into electronic case files and 
        share the files with other agents electronically.
---------------------------------------------------------------------------
    \26\ According to the FBI, the existing applications are Integrated 
Intelligence Information Application (a database of over 20 million 
records supporting collection, analysis and dissemination of 
intelligence for national security and counterterrorism 
investigations); Criminal Law Enforcement Application (a repository for 
storing, searching, and linking investigative data about people, 
organizations, locations, vehicles, and communications); Telephone 
Application (FBI's central repository supporting collection, analysis, 
correlation and processing of telephone records for investigations); 
and Automated Case Support (a suite of integrated applications for 
managing, storing and searching information and documents for FBI 
investigations and administrative cases).
---------------------------------------------------------------------------
    To date, the FBI's management of Trilogy has resulted in multiple 
cost overruns and schedule delays. The table below details the cost and 
schedule shortfalls for each of the three components that comprise 
Trilogy. In summary, the FBI established its original project 
commitments in November 2000 but revised them in January 2002 after 
receiving additional funding ($78 million) to accelerate the project's 
completion. About this time, the FBI also revised the Trilogy design to 
introduce more functionality and capability than original planned. 
Based on the January 2002 commitments, the first two components of 
Trilogy were to be completed in July 2002, and the third was to be 
completed in December 2003. However, the project's components have 
collectively experienced cost overruns and schedule delays totaling 
about $120 million and at least 21 months, respectively.

                                               TABLE 1.--TRILOGY COST AND SCHEDULE SHORTFALLS BY COMPONENT
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                    Variance between                    Variance between
                                                                                                      November 2000                     January 2002 and
                                                                  November 2000     January 2002    and January 2002     March 2004        March 2004
                        Trilogy Component                          commitments       commitments       commitments       commitments       commitments
                                                                (date/funding in  (date/funding in    (schedule in    (date/funding in    (schedule in
                                                                    millions)         millions)      months/funding       millions)      months/funding
                                                                                                      in millions)                        in millions)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Transportation Network Component..............................          \1\ 5/04          \1\ 7/02   \2\ (22 months)    Completed 3/03          8 months
                                                                      \1\ $238.6        \1\ $288.1             $49.5              $0.0  ................
Information Presentation Component............................          \1\ 5/04          \1\ 7/02   \2\ (22 months)              4/04         21 months
                                                                      \1\ $238.6        \1\ $288.1             $49.5            $339.8             $51.7
 User Applications Component..................................              6/04             12/03    \2\ (6 months)          \3\ 6/04          6 months
                                                                          $119.2            $139.7             $20.5        \3\ $170.0             $30.3
Project management and other funding..........................             $22.0             $30.0              $8.0             $71.3             $41.3
                                                               -----------------------------------------------------------------------------------------
      Total funding...........................................            $379.8            $457.8             $78.0            $581.1            $123.3
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Commitment date and funding amount is for both Transportation Network Component and Information Presentation Component.
\2\ Months the schedule commitment was accelerated.
\3\ According to a key Trilogy project official, new schedule and cost commitments are being developed for the User Applications Component.

Source: GAO based on FBI data.

    These Trilogy shortfalls in meeting cost and schedule commitments 
can be in part attributed to the absence of the kind of IT management 
controls discussed earlier. Specifically, in its study of the FBI's 
investment management processes which included a case study of Trilogy, 
the Inspector General cited the lack of an enterprise architecture and 
mature IT investment management processes as the cause for missed 
Trilogy milestones and uncertainties associated with the remaining 
portions of the project. In our view, a major challenge for FBI going 
forward will be to effectively manage the risks associated with 
developing and acquiring Trilogy and other system modernization 
priorities discussed in its strategic plan, while the bureau is 
completing and implementing its enterprise architecture and other IT-
related controls and is adopting a more centralized approach to IT 
management leadership.

FBI Continues to Realign Staff Resources to Address Counterterrorism 
        Related Priorities
    As we pointed out in our June 2003 testimony and our follow-up 
letter to the FBI in September 2003, a key element of the FBI's 
reorganization and successful transformation is the realignment of 
resources to better ensure focus on the highest priorities. Since 
September 11, the FBI has permanently realigned a substantial number of 
its field agents from traditional criminal investigative programs to 
work on counterterrorism and counterintelligence investigations. 
Additionally, the bureau has had a continuing need to temporarily 
redirect special agent and staff resources from other criminal 
investigative programs to address higher-priority needs. Thus, staff 
continue to be redirected from other programs such as drug, white 
collar, and violent crime to address the counterterrorism-related 
workload demands. The result of this redirection is fewer 
investigations in these traditional crime areas.
    We want to make clear that we in no way intend to fault the FBI for 
the reassignment of agents from drug enforcement, violent crime, and 
white collar crime to higher-priority areas. Indeed, these moves are 
directly in line with the agency's priorities and in keeping with the 
paramount need to prevent terrorism.\27\ In 2002, the FBI Director 
announced that in keeping with its new priorities, the agency would 
move over 500 field agent positions from its drug, violent crime, and 
white collar crime programs to counterterrorism. The FBI has 
transferred even more agent positions than it originally announced and 
has augmented those agents with short-term reassignment of additional 
field agents from drug and other law enforcement areas to work on 
counterterrorism.\28\ As figure 1 shows, about 25 percent of the FBI's 
field agent positions were allocated to counterterrorism, 
counterintelligence, and cyber crime programs in prior to the FBI's 
change in priorities. Since that time, as a result of the staff 
reprogrammings \29\ and funding for additional special agent positions 
received through various appropriations, the FBI staffing levels 
allocated to the counterterrorism, counterintelligence, and cyber 
program areas have increased to about 36 percent and now represent the 
single largest concentration of FBI resources and the biggest decrease 
is in organized crime and drugs.
---------------------------------------------------------------------------
    \27\ We currently have work under way for the House Appropriations 
Subcommittee to assess the impact of the FBI's realignment of resources 
away from drug and other traditional criminal programs, including an 
assessment of changes in price, purity, and use of illegal drugs. We 
expect to report out on this effort later in the year.
    \28\ The FBI later in fiscal year 2003 initiated another 
reprogramming to permanently reallocate about an additional 160 agent 
positions from its drug program to one of the priority areas.
    \29\ The FBI has the authority to reprogram funds (i.e., move funds 
between activities within a given account) without notifying the 
relevant Appropriations Committees unless a specific purpose is 
prohibited or the amount of the reprogramming exceeds a dollar 
threshold ($500,000 or a 10-percent change in funding level, whichever 
is less). Any other reprogramming action requires notification of the 
relevant Appropriations Committee 15 days in advance of the 
reprogramming.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    \30\ These percentages differ from those reported in our June 18, 
2003 testimony (GAO-03759T), which were limited to direct funded field 
---------------------------------------------------------------------------
agent positions.

    The FBI's staff reprogramming plans, carried out since September 
11, have now permanently shifted 674 field agent positions \31\ from 
the drug, white collar crime, and violent crime program areas to 
counterterrorism and counterintelligence. In addition, the FBI 
established the Cyber program, which consolidated existing cyber 
resources.
---------------------------------------------------------------------------
    \31\ The figure of 674 positions excludes 11 supervisory positions 
that were returned to the drug program.
---------------------------------------------------------------------------
    Despite the reprogramming of agent positions in fiscal year 2003 
and the additional agent positions received through various 
supplemental appropriations since September 11, agents from other 
program areas continue to be temporarily redirected to work on leads in 
the priority areas, including counterterrorism-related leads.\32\ This 
demonstrates a commitment on the part of the FBI to staff priority 
areas.
---------------------------------------------------------------------------
    \32\ The FBI has certain managerial flexibilities to temporarily 
redirect staff resources to address critical needs and threats.
---------------------------------------------------------------------------
    As figure 2 shows, the average number of field agent workyears 
charged to investigating counterterrorism-related matters has 
continually outpaced the number of agent positions allocated to field 
offices for counterterrorism since September 11.\33\ The FBI's current 
policy is that no counterterrorism leads will go unaddressed even if 
addressing them requires a diversion of resources from other criminal 
investigative programs such as the drug, violent, and white collar 
crime.
---------------------------------------------------------------------------
    \33\ A workyear represents the full-time employment of one worker 
for 1 year. For this statement, a matter is an allegation that is being 
or has been investigated by the FBI.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As we previously reported, as the FBI gains more experience and 
continues assessing risk in a post-September 11 environment, it should 
gain more expertise in deciding which matters warrant additional 
investigation or investment of investigative resources. However, until 
the FBI develops a mechanism to systematically analyze the nature of 
leads and their output, the FBI will have to continue its substantial 
investment of resources on counterterrorism-related matters to err on 
the side of safety. We are not intending to imply that, even with more 
information from past experience, that all leads should not be 
investigated, but more analytical information about leads could help 
prioritize them.
    Neither the FBI nor we were in a position to determine the right 
amount of staff resources needed to address the priority areas. 
However, the body of information that might help to make these 
determinations is growing. Since the September 11 attacks, the FBI has 
updated its counterterrorism threat assessment and has gained 
additional experience in staffing priority work. This development, 
along with an analysis of the nature of all leads (those that turn out 
to be significant and those that do not) and the output from them, 
could put the bureau in a better position to assess the actual levels 
of staff resources that the agency needs in counterterrorism, 
counterintelligence, and cyber programs. Of course, any new terrorist 
incidents would again, upset the balance and require additional staff 
in the priority areas.
    An FBI counterterrorism manager we spoke with during a recent field 
office visit said that to develop a system to determine which terrorist 
leads to pursue and which ones to not pursue would be a complex task. 
He noted that in the past there would have been some citizen contacts 
that the FBI may not have generally pursued, but said that now any 
lead, regardless of its nature, is followed up. He observed that 
following up on some of these leads have resulted in the arrests and 
convictions of terrorists. For example, the FBI manager recounted a 
telephone lead from a tour boat operator who reported concerns about a 
passenger who was taking photographs of bridges and asking unusual 
questions about infrastructure. That lead started an investigation that 
led to the arrest of, and criminal charges against, the suspect, who 
was alleged to be plotting a terrorist attack.
    According to FBI officials, information from leads is collected in 
a database that can be searched in a number of ways to help in 
investigations. To the extent that more systematic and sophisticated 
analysis routines can be developed and applied to these data (or any 
expansions of this data set) the FBI may be able to develop richer 
information about the relative risk of leads. This information could 
help prioritize work and manage scarce resources. While we agree with 
the FBI counterterrorism manager we cited above who labeled this a 
complex task, the potential value of the output, given that resources 
are always limited, seems worth the investment.

            Counterterrorism Matters Have Continued to Increase
    The level of effort in counterterrorism is further reflected in the 
number of counterterrorism matters that have been opened following 
September 11. As figure 3 shows, the number of newly opened 
counterterrorism matters has remained significantly above the pre-
September 11 levels, peaking in the second quarter of fiscal year 2003 
and dropping somewhat in the most recent quarters.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Reallocation of FBI Resources Has Affected the FBI's Drug 
                    Enforcement and Other Traditional Law Enforcement 
                    Efforts
    Use of field agent staff resources in other traditional criminal 
investigative programs (such as drug enforcement, violent crime, and 
white collar crime) has continuously dropped below allocated levels as 
agents from these programs have been temporarily reassigned to work on 
counterterrorism-related matters. As would be expected, the number of 
newly opened drug, violent crime, and white collar crime cases has 
fallen in relation to the decline in the number of field agent 
positions allocated or assigned to work on these programs.
    The change in priorities and the accompanying shift in 
investigative resources have affected the FBI's drug program the most. 
Nearly half of the FBI field agent drug positions have been permanently 
reallocated to priority program areas. Since September 11, about 40 
percent of the positions allocated to FBI field offices' drug program 
have been reallocated to counterterrorism and counterintelligence 
priority areas. As figure 4 shows, just prior to September 11, about 
two-thirds (or 890) of the 1,378 special agent positions allocated to 
FBI field offices for drug program matters were direct-funded.\34\ The 
remaining one-third (or 488) of the special agent positions was funded 
by the Organized Crime and Drug Enforcement Task Force program 
(OCDETF). As of the first quarter of fiscal year 2004, the number of 
direct-funded positions allocated to FBI field offices for the drug 
program had decreased over 60 percent, going from 890 to 337. OCDETF-
funded agent positions, which have remained constant, now account for 
about 60 percent of the FBI field offices' drug program staff 
resources.
---------------------------------------------------------------------------
    \34\ FBI's drug program workforce is composed of field agent 
positions funded through direct FBI appropriations and those supported 
with OCDETF funds. The OCDETF Program was established in 1982 to focus 
federal, state, and local law enforcement efforts against organized 
crime drug-trafficking organizations that pose the most serious threat 
to our national interests.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While this reduction represents a substantial decline in the number 
of field agent positions allocated to drug work, in fact, the reduction 
in drug enforcement workyears was actually larger than these figures 
reflect. Specifically, as needs arose for additional agents to work 
counterterrorism leads, field agents assigned to drug program squads 
were temporarily reassigned to the priority work. As figure 5 shows, at 
the extreme, during the first quarter of fiscal year 2002 (just after 
the events of September 11), while 1,378 special agent positions were 
allocated to drug work, only about half of these staff resources worked 
in the FBI drug program. In mid-fiscal year 2003, the allocated number 
of drug agent positions and the average number of field agent workyears 
charged to drug matters started to converge toward the new targeted 
levels. Since that time, however, the FBI has had to redirect 
additional field agents allocated to its drug program to 
counterterrorism and other priority areas. As of the second quarter of 
fiscal year 2004, about a quarter (225 of 825) of the agents assigned 
to the FBI's drug program were actually working in higher-priority 
areas. The reduction in drug enforcement resources has reduced both the 
number of drug squads in FBI field offices as well as the number of FBI 
agents supporting the High-Intensity Drug Trafficking Area (HIDTA) 
program initiatives, according to FBI officials.\35\
---------------------------------------------------------------------------
    \35\ The HIDTA program began in 1990 to provide federal assistance 
to help coordinate and enhance federal, state, and local drug 
enforcement efforts in areas of major illegal drug production, 
manufacturing, distribution, transportation, and use.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The significant reduction in agent strength in the drug enforcement 
area is likely to be an important factor in the smaller number of FBI 
drug matters opened in fiscal year 2003 and the first quarter of fiscal 
year 2004. As figure 6 shows, the number of newly opened drug matters 
went from 2,420 in fiscal year 1998 to 950 in fiscal year 2002 and to 
587 in fiscal year 2003.
    The openings for the first quarter of fiscal year 2004 indicate a 
rate for the entire year at about fiscal year 2003 levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Similarly, as figures 7 and 8 show, the average number of field 
agent workyears charged to violent crime and white collar crime matters 
also declined below the number of allocated agent workyears as these 
agents too have been temporarily redirected to counterterrorism-related 
matters.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As figures 9 and 10 show, the number of newly opened violent crime 
and white collar crime matters has declined since September 11.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              CONCLUSIONS

    The FBI's transformation effort is driven in part by challenges 
facing the federal government as a whole to modernize business 
processes, information technology, and human capital management. It is 
also driven by the need to make organizational changes to meet changes 
in its priorities in the post-September 11 environment. This effort 
will require a structure for guiding and continuously evaluating 
incremental progress of the FBI's transformation. It must also be 
carried out as part of, and consistent with, broader government-wide 
transformation efforts that are taking place, especially those 
resulting from the establishment of DHS and in connection with the 
intelligence community. The FBI has made substantial progress, as 
evidenced by the development of both a new strategic plan and a 
strategic human capital plan, as well as its realignment of staff to 
better address the new priorities. Although the new strategic plan and 
strategic human capital plans include cross walks to each other, we 
still believe that an overall transformation plan is more valuable in 
managing the transformation process. The FBI is also making progress in 
strengthening its management of IT, including establishing 
institutional IT management controls and considering changes to the 
scope of CIO's authority over IT spending.
    Impacts of the FBI shift in field agent resources on crime programs 
including the FBI's drug, white collar, and violent crime programs 
should be monitored. Our ongoing work, which we expect to complete 
later this year, will provide information on whether other federal and 
state resources are replacing lost FBI resources in the traditional 
crime areas and on whether reductions in FBI drug program field agents 
have had an impact on the price, purity, availability, and use of 
illegal drugs.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you and 
the Subcommittee members may have.
     Appendix 1.--FBI Reengineering Projects Completed and Underway

------------------------------------------------------------------------
              Core processes                   Reengineering projects
------------------------------------------------------------------------
Strategic planning and execution (6)......  HQ organizational structure
                                            Strategic planning process
                                            Communication strategy
                                            Executive secretariat
                                            Project management
                                            Inspection process
Capital (human and equipment) (17)........  Career development/
                                             succession planning
                                            Executive development and
                                             selection program (EDSP)
                                            File/clerical support
                                            Office of Professional
                                             Responsibility
                                            Training
                                            Hiring and recruiting
                                            Fitness test/height-weight
                                             standards
                                            Preparation for legal
                                             attache assignment
                                            Administrative officer
                                             position upgrade
                                            Analyst professionalism
                                            Culture/values
                                            Time utilization record
                                             keeping system (TURK)
                                            Asset Management
                                            Financial audit streamlining
                                            Management of supplies
                                             purchase and distribution
                                            Field office reorganization
                                            Resident agency
                                             consolidation
Information management (4)................  Trilogy
                                            Top secret/sensitive
                                             compartment information (TS/
                                             SCI) local area network
                                            Records management division
                                             reorganization
                                            Rapid start/ICON
Investigative programs (6)................  Counterterrorism strategy
                                            Counterintelligence strategy
                                            Cyber strategy
                                            Criminal investigation
                                             division strategy
                                            Manual of Investigative
                                             Operations and Guidelines
                                             (MIOG)/Manual of
                                             Administrative Operations
                                             and Procedures (MAOP)
                                             Project
                                            Foreign Intelligence
                                             Surveillance Act
Intelligence (2)..........................  Review criminal informant
                                             program (CIP) and asset
                                             program issues
                                            Analytical tools for
                                             intelligence analysts
Security Management (5)...................  Continuity of operations
                                             planning (COOP)
                                            FBI headquarters space
                                             strategy
                                            Vital records
                                            Security manual pilot
                                             project
                                            Repository for Office of
                                             Professional Review (OPR)
                                             appeals/security violations
------------------------------------------------------------------------
Source: FBI.

                        ENTERPRISE ARCHITECTURE

    Senator Gregg. Dr. Ekstrand, what should the enterprise 
architecture plan be?
    Ms. Ekstrand. I defer to my counterpart.
    Mr. Hite. An enterprise architecture is not a one-size-
fits-all proposition. It is a function of what the organization 
is about, its complexity, its size, its mission, and it is also 
a function of what it is intended to be used for.
    So in the case of FBI, you have a very large organization, 
huge in scope, important mission, and the intended purpose 
ultimately is to drive IT modernization and these are very 
demanding goals. So, therefore, it would argue to have a very 
well-defined, robust enterprise architecture.
    So having said that, what it would be is a set of 
interrelated models, diagrams, tables and narrative that define 
what the FBI does, where it does it, how it does it, when it 
does it, who does it, defines all these things both in business 
terms, in mission or logical terms, and also in terms of the 
technology that is going to be employed in order to exercise 
those kinds of operations. So it would include the standards 
and the protocols and the rules that are going to govern the 
types of technology that are going to be employed, both from an 
application standpoint and from a supporting infrastructure 
standpoint. It is like the mother of all system change tools.
    Senator Gregg. How should it be developed? Should it be 
developed by outside consultants or should it be developed 
internally, and how do you perceive that the FBI intends to 
develop it?
    Mr. Hite. It could be developed either way. We recently did 
a survey of the state of enterprise architecture across the 
Government and looked to see how agencies were doing this. The 
vast preponderance hire a contractor to assist them in doing 
this and they work with the contractor. There are very few who 
actually contract out the entire operation to a contractor, and 
there are a few that do it in-house.
    My understanding of how the FBI is going to proceed is to--
and they have, I believe as of yesterday, awarded a contract 
for development of its enterprise architecture. It has a draft 
plan to set up an organization to lead this effort and to 
manage the contractor. So it will be done largely by a 
contractor under the FBI's direction and guidance. The FBI 
will, in essence, be acquiring its enterprise architecture 
product from a contractor.
    Senator Gregg. Have you looked at the contract that they 
have developed and signed and do you think that this is a game 
plan that makes sense? Have they outlined a game plan that 
makes sense?
    Mr. Hite. No, sir, I have not. I have not seen that. That 
is a fair question to ask.
    Senator Gregg. Since you have been actively involved in 
this, wouldn't it have been logical that they would have come 
to you and said, does this make sense, before they signed the 
contract?
    Mr. Hite. That is certainly a service that we would be 
willing to work with them on. We----
    Senator Gregg. Did they do that?
    Mr. Hite. We have had FBI-initiated dialogue by the acting 
CIO for him to share with us what his plans and proposals are 
going forward and it allowed us to provide feedback. We have 
not spoken specifically about the contractual terms for this 
enterprise architecture development area.
    Senator Gregg. Well, I would like to ask you if you could 
take a look at what they have proposed as to how they are going 
to develop this enterprise zone conceptually and then in the 
specifics of the contract and get back with this committee with 
your assessment of whether it is an approach that is going to 
work.
    Mr. Hite. Yes, sir.
    Senator Gregg. I don't want to do another thing where we--I 
mean, we have got a track record here of approaches that don't 
work.
    Mr. Hite. Understood.
    Senator Gregg. Although I have to admit, this Director has 
really tried to address the issue aggressively.

    FEDERAL BUREAU OF INVESTIGATION/DRUG ENFORCEMENT ADMINISTRATION 
                              RELATIONSHIP

    You mentioned that you have been looking at the effect that 
the reallocation of FBI people has had on drug enforcement 
efforts. Have you looked at the relationship between DEA and 
FBI and whether we should have DEA even take a--obviously, it 
is their name, it is what they should be doing. Why is the FBI 
in drug enforcement at all? Where are we going here? Have you 
done a study of that at all?
    Ms. Ekstrand. We haven't done a study of that, but when we 
testified last June before House Appropriations, we had had a 
substantial amount of interaction with DEA in terms of how they 
perceived their role changing with the withdrawal, to some 
extent, of FBI presence in the area. We are planning to do some 
additional work in that area and report out this summer for 
House Appropriations.
    Senator Gregg. I would be very interested in an assessment 
of, as FBI migrates over to counterterrorism and has to give up 
some of its portfolio, the Director was quite up front. He said 
most of the portfolio they are giving up is in drug 
interdiction. What is DEA's role in picking that up? Can it do 
more? In other words, could DEA step in and do more of what the 
FBI has been doing in this arena so the FBI could actually free 
up more agents? Are you looking at that?
    Ms. Ekstrand. We are looking at some of that. We do know 
that as of last June, there had been a number of new positions 
authorized at DEA and that even more were requested for the 
following year. So we do know that DEA's resources, number in 
terms of agents, has been growing. But we haven't had the 
opportunity as yet to get into this in detail.
    Senator Gregg. To the extent you could, that would be 
useful to us because this committee has the unique position of 
being able to move resources and we don't mind doing that if it 
is constructive, but we would like to have some substance upon 
which to make those decisions. But it seems logical to me that 
DEA's role has got to significantly increase and you have got 
to give them more resources and we have got to then expect the 
FBI to move resources out of drug enforcement and into 
counterterrorism as a result of freeing those up.
    Mr. Fine, there are so many areas I would like to talk to 
you about, but I will focus on this IT issue. I thought it was 
good that everybody said the FBI appears to be getting on the 
right track here and things are moving well. How do we sustain 
that as we move forward and especially with the Virtual Case 
File issue? We have got all this hardware and we have got the 
communications capability, but if you don't have anything to 
put on the hardware or the communications capability that 
works, what good is it?
    Mr. Fine. I do think the FBI is making progress in 
improving things, but it does need to do more. It has to ensure 
that they have definitive milestones that the contractors have 
to meet. They have to hold them accountable for those 
milestones. They have to keep sustained attention on this. They 
have to define their requirements right up front so that the 
contractor knows what it has to deliver and be held accountable 
if it doesn't deliver that.
    I think there has also been, unfortunately, a fair amount 
of turnover and not necessarily stability in the senior FBI IT 
management structure, so that people are moving on and not 
having responsibility, sustained responsibility, to assure a 
project through to completion. I do think they have a new 
acting CEO that is technically astute and seems committed to 
this. But there has to be that constant attention on that, as 
well.
    So I think there has to be a hard-nosed approach to this 
that perhaps in the past the FBI has not fully implemented.

                       VIRTUAL CASE FILE CONTRACT

    Senator Gregg. Have you looked at what they are doing now 
in the Virtual Case File contract that they are negotiating 
right now? Have you been involved in that process to put in 
place that type of a discipline?
    Mr. Fine. Yes. We have an audit opened. We recently opened 
it. We have done it in the past and recently opened a new audit 
on Trilogy, on all the aspects of Trilogy. So our auditors are 
talking to the FBI IT managers every day and trying to find out 
where they are going, how they are doing it, and ensuring that 
there is this aggressive approach to ensuring that it comes in 
without excessive cost overruns or delays.
    Senator Gregg. If I understood the Director correctly, and 
maybe I didn't hear him correctly, but my impression was that 
he said, with regard to the Virtual Case File, that they were 
in the process of developing a new contract, essentially, to 
get the program into the next phase and that it had not been 
agreed to and that he agreed that disciplines should be put 
into it. He didn't necessarily say they were going to be put 
into it. And I would be interested in getting your current 
assessment, not now, but as this moves forward as to how 
effectively that is being done.
    Mr. Fine. We would be happy to do that. Our understanding 
is that there was a contract, but they are negotiating and 
renegotiating the requirements of it and when to do it, and 
they are in the process of defining that now. And we will be 
involved with monitoring and overseeing it because of the 
importance of this issue.

                        IDENT/IAFIS INTEGRATION

    Senator Gregg. You mentioned IAFIS and you have done an 
IDENT/IAFIS paper.
    Mr. Fine. Report, yes.
    Senator Gregg. Report.
    Mr. Fine. We have done a number of studies on that, but 
most recently, a report on the Batres case and the status of 
the IDENT/IAFIS integration.
    Senator Gregg. Is this possible? I mean, the Director 
seemed to think it was possible to integrate these two. But, 
the IDENT people want to have a very short timeframe to get the 
person through and IAFIS is built on the concept of what he 
refers to as the gold standard, which takes 20 minutes probably 
to take fingerprints under that scenario. Is there some 
capacity to resolve this?
    Mr. Fine. I think there is and I think it is 
technologically possible. I think there are three main issues 
with the IDENT/IAFIS integration. One, along the border, having 
the Border Patrol ensure that it checks detained aliens against 
IAFIS. And they are getting the machines out there but they 
don't have the machines out there, the 10-print machines that 
would connect IAFIS at all the border stations. As a result, or 
after our report, the Department of Homeland Security said it 
would expedite a process of getting----
    Senator Gregg. Is that an issue of money or just an issue 
of the machines not being available or bureaucracy----
    Mr. Fine. I think it is an issue of money, to some extent, 
but also attention and urgency to the process. I think there is 
an urgency now, and there needs to be that urgency. That is the 
first issue.
    The second issue is ensuring that the FBI and State and 
local law enforcement has access to IDENT and access to the 
information in IDENT, and going that way, as opposed to simply 
having the immigration authorities have access to the FBI 
system.
    And the third issue is the issue that you raised, at ports 
of entry, US VISIT, and what information is going to be taken 
from people who are coming to enter the country and what it is 
going to be bounced off against. I don't believe they have 
determined what they intend to do and how they intend to do it. 
And part of the issue is getting the parties together and 
determining what they can do and what they should do. Prior to 
this, I don't think there has been that focus on that issue.
    Senator Gregg. How do we get that focus? I have raised it 
now at two different hearings and I have gotten very nice 
responses, but is there actually something happening?
    Mr. Fine. I think there is something happening. I have 
spoken to Director Mueller. I speak with him regularly and he 
has indicated that they are talking with the Department of 
Homeland Security, with the State Department, and even, my 
understanding, the National Security Council is also involved 
in the process. It is a cross-agency issue, but there needs to 
be that focus on it and a decision made on a government-wide 
basis how they are going to do it.
    It was hard enough when the INS was in the Department of 
Justice, getting them on the same page with the FBI. It is even 
harder now that they are in separate agencies, but that is what 
needs to happen. There needs to be clear terms. There needs to 
be memoranda of understanding, and they need to decide how they 
are going to go forward with this.
    Mr. Hite. Mr. Chairman----
    Senator Gregg. Yes?
    Mr. Hite [continuing]. If I could just add a couple of 
comments on that, I testified last week on US VISIT and we have 
issued a number of reports on it. We actually have one coming 
out for the Appropriations Committee next month, which is an 
update on the status of US VISIT, and the way US VISIT is being 
developed and deployed. It is going to be in increments and 
some of these near-term increments are designed to meet 
legislative requirements for deployment of a capability to 
certain ports of entry by a certain time.
    The initial deployment that has occurred at airports and 
seaports does provide for a biweekly download of certain files 
from IAFIS to the IDENT component of US VISIT. It is not a 
real-time download of information, but it is every 2 weeks. 
That is all part of an interim solution approach to US VISIT 
that is needed in order to meet these very aggressive 
milestones.
    They are also in the process of bringing on an integration 
contractor and one of the responsibilities of that integration 
contractor will be to develop the long-term solution for US 
VISIT, which will get into some of these other issues about how 
many fingerprints are necessary, and I know they are working 
with NIST and the other agencies on that. There was talk about 
whether eight fingerprints would be a sufficient standard, and 
I think there has been talk that maybe dropping back to two 
prints for the intended purpose of US VISIT will be enough. But 
there is this dialogue. There are memorandums of understanding 
and working groups among all these agencies involved in US 
VISIT.
    Senator Gregg. Well, I hope you are right. I have the 
feeling this is deja vu all over. This committee has been down 
this road before 9/11, when we tried to get these various 
agencies to talk to each other. As Mr. Fine points out, we 
couldn't even get Border Patrol and FBI to talk to each other 
when we had them both under our jurisdiction.
    There is a real frustration in seeing 44 million 
fingerprints sitting over here and setting up a system which is 
supposed to fingerprint people coming into the country and 
knowing that the ones you are doing as you fingerprint people 
coming into the country does not have the capability of 
accessing that database. I hope that there is some greater 
being up there that is straightening this out, but I don't 
really sense it. I haven't seen any reaction that gives me that 
impression.
    Mr. Hite. We did, in our issued report 6 months ago, we 
made a recommendation about having a government-wide governing 
structure for US VISIT because it is a government-wide program, 
and based on the steps that have been taken in the last 6 
months, we have closed out that recommendations as having been 
satisfied. They have a three-tiered approach to establishing 
this government-wide governance structure.
    Senator Gregg. That is good news. I hope it translates into 
results. It is always nice to hear that there is movement.

                             LEGAT PROGRAM

    You also, Mr. Fine, have a report coming out, I think, on 
the Legat program. I would be interested in just your reaction 
to it. It has expanded dramatically with this committee's very 
strong support, although sometimes occasional words of caution 
from our most senior member, Senator Hollings. But it has been 
expanded. It was a priority of the prior Director and has been 
proven to be, I think, an invaluable resource in light of what 
our present threat is and the changed personality of the FBI 
and the international role it has.
    But I would be interested in where you see the weaknesses 
are and where are the strengths, or aren't you going to be able 
to tell us yet?
    Mr. Fine. Well, we haven't issued the report, so I don't 
want to get into all of it, but I do agree with you that it has 
been an important component of the FBI's efforts. With the 
globalization of crime, with the increase of international 
terrorism, it had to do this and I think it deserves credit for 
moving forward in that regard.
    I think it is working generally well. I do think there are 
some issues, particularly with training of the people who are 
going abroad, with language training, with training of them to 
pursue their roles in foreign countries immediately. So I think 
that is an important issue. But beyond that, I think we should 
wait for the report. But I think it is a critical issue that 
the FBI has taken on and that we need to follow up on.
    Senator Gregg. What about the language issue? The Director 
said they have 24 agents who speak Arabic. I think there are 65 
who are in the backup who aren't agents who speak Arabic. There 
are 250 or something like that as I recall that speak Mandarin. 
Not a lot of people. There is a lot of information floating 
around for that few people to be on top of.
    Mr. Fine. I think that is absolutely right. We do have an 
ongoing review of that issue. We have a review of the FBI's 
efforts to hire and train linguists, for example, to ensure 
that they are able to translate all the information they have. 
There are backlogs. There are backlogs of translations. And 
when that happens and they have information in the FBI in their 
files, in their transcripts that they can't translate, it 
undermines their mission. So I think it is a critical issue 
that the FBI has to focus on.
    I know that the Director is focused on that. It is not 
easy. But we are going to review how they can improve their 
efforts to be able to translate all that they have and to 
expand the pool of agents who have foreign language 
capabilities.

                               LINGUISTS

    Senator Gregg. Has GAO looked at this issue of an 
overriding centralized translation center capability?
    Ms. Ekstrand. We have not. We had reported last June in 
terms of the number of linguists hired and they are 
substantially the same numbers that Director Mueller just gave. 
But we have not had a renewed opportunity to look at that----
    Senator Gregg. So you haven't discussed whether we should 
have basically a translation capability that is independent of 
the Bureau?
    Ms. Ekstrand. No, sir, we have not looked at that.
    Senator Gregg. Have you looked at that?
    Mr. Fine. I think we are sort of involved in the issue, but 
I don't think that is the focus of our review, how government-
wide to address this issue.
    Senator Gregg. Is there something else this committee 
should know about specifically the technology area or the 
personnel allocations that would help us as we try to make sure 
we have a more effective and aggressive Bureau?
    Mr. Fine. I think the committee's efforts in this regard 
are very important. It is important to monitor and ensure that 
the FBI does upgrade its technology. I think that the FBI 
recognizes this. But it is important to point out that even 
when Trilogy is online, and it is not clear when it will be 
online, I am not completely optimistic that it will happen, the 
first two components at the end of April and then a Virtual 
Case File, as the Director said, 2 months later.
    To have a real operating system that works, that the agents 
know about and are trained on and accept is, in my view, going 
to take longer than that. But I do think it is important to 
focus attention on the fact that Trilogy itself is not the end 
of the road. It is only a portion. It is only the foundation. 
As one, I think, FBI manager has said, it gets the FBI out of 
the ditch and gets them on the road, but it doesn't get them on 
the highway. And the FBI needs to sustain its attention on 
these efforts because without it, FBI employees can't do the 
job that they are assigned to do. It is actually a credit to 
them that they have done well with the archaic systems they 
have. But we need to give them better systems.
    Senator Gregg. Isn't that what the enterprise architecture 
should do, give them the road map to getting on the highway?
    Mr. Hite. That will be part of the--one variable in the 
equation, to that end. I would echo what Mr. Fine said and use 
a different metaphor, that Trilogy is the beginning of a long 
marathon of systems modernization. It is not a sprint. And in 
order to finish a marathon, you have got to be trained and 
equipped to finish it. You have got to be ready to finish it.
    And being ready means you have the tools at your disposal 
to effectively execute a modernization. Enterprise architecture 
is one of those tools. Mature investment processes are another. 
There is a whole host of things that need to be in place, and 
unfortunately, the FBI historically has not been a favorable 
poster child for good IT management. Now you have got some 
people in place----
    Senator Gregg. It has been behind.
    Mr. Hite [continuing]. I believe who understand that and 
are trying to change that. But changing that is not going to be 
an overnight endeavor, so there is going to be hundreds of 
millions of dollars to modernize systems. There is going to be 
hundreds of millions of dollars going into operating and 
maintaining existing systems, and it is not going to change 
overnight.
    Senator Gregg. Should we have a more disciplined approach 
from the appropriations side in funding IT at the FBI so there 
is not a peak and a valley approach, or are we approaching it 
appropriately as appropriators?
    Mr. Fine. It is hard to answer that question, but I do 
believe and appreciate the fact that the committee is asking 
these questions, is keeping the pressure on the FBI. In my 
understanding, it is regularly asking for updates from the FBI 
and I think that is important rather than to appropriate the 
money and wait to see what happens. So I think the committee's 
efforts are instrumental in this regard.
    Mr. Hite. There are mechanisms that other subcommittees use 
with regard to IT modernization programs like US VISIT. The 
CBP's, Custom and Border Protection's, Automated Commercial 
Environment, which is an import-export processing system, for 
the IRS, what has the Tax Systems Modernization, now the 
Business Systems Modernization, where the Appropriations 
Committees ask, or actually direct in their appropriation 
language that the agency develop each year a plan of 
expenditure, how they plan to invest the money, which gets into 
what they are going to spend it on, when, and how are they 
going to ensure that the money is spent wisely and there is 
adequate control surrounding the use of that money.
    They require that the expenditure plan be approved by the 
head of the Department for that agency, to be approved by OMB, 
and to be reviewed by GAO, and then we support the committee in 
reviewing it and giving them information to make decisions 
about their oversight of the use of that money. I am not 
advertising----
    Senator Gregg. Is the FBI at the level where it can do 
that? I mean, right now, we are just trying to get it up and 
running.
    Mr. Hite. And so that would be the focus of any plan for 
how they are going to invest the funds, to deal with how they 
are going to get it up and running, the near-term priorities as 
well as setting the groundwork for the long-term disciplined 
approach to wholesale systems modernization.
    Senator Gregg. I don't think the FBI is the only 
organization that needs to be disciplined and systematized. I 
think we do, too, as appropriators. So I would be interested in 
getting that information. Maybe you could sit down with our 
staff and review how that is done in other committees. I am 
sure they are probably familiar with it. I think we should have 
a systematized approach, also.
    I thank you very much. This hearing has been very 
informative. I appreciate the work you folks do in keeping 
these various agencies on track. It is very constructive and 
very much appreciated.

                          SUBCOMMITTEE RECESS

    The next hearing is scheduled for this Thursday. It will be 
with the Secretary of State, Colin Powell, at the office in the 
Capitol Building at 10 o'clock. Thank you.
    [Whereupon, at 12:14 p.m., Tuesday, March 23, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
March 25.]

</pre></body></html>
